               The Small Business/Self-Employed Division
              Has Taken Actions to Reduce Costly Turnover
              Among Its Customer Service Representatives,
                but Improvement Opportunities Still Exist

                                  February 2004

                       Reference Number: 2004-30-039




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   February 17, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - The Small Business/Self-Employed Division
                                    Has Taken Actions to Reduce Costly Turnover Among Its
                                    Customer Service Representatives, but Improvement
                                    Opportunities Still Exist (Audit # 200230043)


       This report presents the results of our review to determine whether the Internal
       Revenue Service (IRS) Small Business/Self-Employed (SB/SE) Division Customer
       Account Services (CAS) Accounts Management function is effectively managing
       Customer Service Representative (CSR) turnover at its toll-free call centers. The
       SB/SE Division CAS Accounts Management function employs nearly 4,400 CSRs1 at
       5 campus2 call centers and 3 remote call centers.3 From October 2002 through
       April 2003, these CSRs answered almost 4.2 million taxpayer calls.4
       In summary, the IRS recognizes the value of a stable and experienced CSR workforce
       and has identified the CSR job series as one of its seven mission critical positions. In
       recent years, a number of human capital initiatives have been implemented that should
       collectively help to reduce CSR turnover. Among these, the journeyman5 grade level for

       1
         Employment data obtained from the IRS Workforce Information Reports for the pay period ending
       September 20, 2003.
       2
         A campus is an IRS location that houses customer service, compliance, and returns processing functions.
       3
         The SB/SE Division campus call centers are located in Cincinnati, Ohio; Holtsville, New York;
       Memphis, Tennessee; Ogden, Utah; and Philadelphia, Pennsylvania. The remote call centers are located in
       Buffalo, New York; Nashville, Tennessee; and Oakland, California.
       4
         Call volume does not include 1.25 million Employer Identification Number (EIN) calls that were answered by
       EIN Tax Examiners rather than CSRs.
       5
         Journeyman refers to the top grade level within a specific job series that an employee can achieve through
       noncompetitive promotions.
                                                        2


the CSR position was increased, a strategy to increase the ratio of permanent to
seasonal positions was implemented, and a telephone assessment tool for hiring CSRs
from outside the IRS was used at the remote call centers in 2003.
While such initiatives are positive steps, CSR turnover remains a significant challenge
to the SB/SE Division’s ability to provide effective and efficient toll-free telephone
service. During Fiscal Years (FY) 2001 and 2002, the SB/SE Division CAS Accounts
Management function experienced the external turnover6 of 1,359 CSRs (14 percent).7
A factor that significantly contributes to CSR turnover is the need to rely on seasonal
employees to meet the significant telephone demand during each filing season. More
than 80 percent of the external turnover of CSRs in FYs 2001 and 2002 involved
seasonal employees. We estimate the direct financial costs of the external turnover
among the SB/SE Division CAS Accounts Management function’s CSRs were nearly
$10.7 million. Because information on the turnover of the CSRs that migrated to other
jobs in the IRS (i.e., internal turnover) was not routinely tracked, the total CSR turnover
is unknown. Therefore, the total CSR turnover costs for the SB/SE Division CAS
Accounts Management function undoubtedly are significantly higher than $10.7 million.
Besides the direct financial costs, turnover can also result in various indirect costs such
as lower productivity, poor quality, loss of experience, and lower customer satisfaction.
CSR turnover drives entry-level training costs. In FY 2002, the turnover rate for newly
hired CSRs ranged from 19 percent to 28 percent at 4 of the 5 SB/SE Division CAS
Accounts Management function campus call centers8 and from 20 percent to 41 percent
at the 3 remote call centers. Between October 1, 2002, and March 19, 2003, the SB/SE
Division CAS Accounts Management function provided nearly 127,000 hours of
classroom instruction to its newly hired CSRs. At a minimum, the salary cost for this
entry-level training was approximately $1.5 million. Some of the IRS managers we
interviewed stated at least a 2-year training period is needed to bring a new CSR up to
the full performance level. Thus, training costs are a huge investment that can be
essentially lost when new CSRs stay with the IRS only a short period or do not return
for another filing season.
We believe that, by implementing certain call center industry best practices, SB/SE
Division management has opportunities to lower the cost to provide toll-free telephone
service by reducing its CSR turnover. We recommended that the Director, CAS, SB/SE
Division, and the Director, Human Resources, SB/SE Division, develop recruiting and
work scheduling strategies for retaining more of the Division’s seasonal CSRs; ensure
applicants are a good “fit” for CSR positions by expanding the telephone assessment
tool to include testing of internal candidates, developing job previews, and using
supplemental assessment tools; and develop systems for tracking and analyzing both


6
  External turnover refers to an employee separating from the IRS.
7
  In FY 2001, 737 (14 percent) of 5,434 CSRs in the SB/SE Division CAS Accounts Management function
separated from the IRS. In FY 2002, 622 (14 percent) of 4,590 CSRs in the SB/SE Division CAS Accounts
Management function separated from the IRS.
8
  The turnover rate for newly hired CSRs at the remaining campus call center, located in Ogden, Utah, was only
4 percent in FY 2002.
                                            3


the causes and costs of CSR turnover. Finally, we recommended that SB/SE Division
management increase its accountability for the cost of turnover by adding a corporate
call center performance measure for annual CSR turnover, establishing a corporate
turnover goal, and requiring call center managers to develop site-specific strategies for
reducing CSR turnover.
Management’s Response: The Commissioner, SB/SE Division, will request the
Strategic Human Resources office to include the use of a telephone assessment tool for
hiring internal CSR applicants in the upcoming midterm negotiations of the National
Agreement with the National Treasury Employees Union (NTEU). The Commissioner
also agreed to develop standard reports that will provide turnover information by
different variables, ensure information from the SB/SE Division’s exit survey is shared
with campus management, and strive to modify the Separating Employee Clearance
Certificate (Form 5389). The Commissioner advised that the Chief Financial Officer is
implementing the Integrated Financial System, designed to meet the need for Activity-
Based Costing, in April 2004. After its successful implementation, SB/SE Division
management will explore securing reports to reflect the costs of turnover. While the
Commissioner disagreed with our recommendation to explore renegotiating the National
Agreement with the NTEU to permit the use of behavioral interviewing techniques, the
Commissioner plans to explore the use of behavioral interviewing techniques in the
private sector to determine its applicability to the CAS Accounts Management function.
The Commissioner, SB/SE Division, also disagreed with our recommendation to
develop a recruiting strategy targeting individuals that may want only seasonal
employment, stating the Survey 2003, which was available to all employees, included
specific questions for seasonal employees relative to why they accepted seasonal
employment. Thus, a separate survey as recommended in our report would be
redundant. The Commissioner did not commit to any specific action concerning our
recommendation to explore ways to increase the work hours/work season of seasonal
CSRs to avert the need to furlough them for extended periods, stating ongoing practices
are in place to extend the duration of seasonal employees’ work seasons. However, the
Commissioner added the Division would continue to explore any and all options to keep
employees working longer.
The Commissioner, SB/SE Division, disagreed with our recommendation to develop a
video that realistically illustrates the positive, as well as the negative, aspects of a
typical day on the job as a CSR, stating that, in campus locations, most employees
have worked for the IRS for many years and continuously hear about both the negative
and positive aspects of different jobs within each campus segment. The Commissioner
stated that, when employees from the Submission Processing and/or Compliance
Services functions apply for CSR positions in the CAS Accounts Management function,
they are making informed decisions.
The Commissioner, SB/SE Division, disagreed with our recommendations to add
“Annual Turnover” to the corporate suite of call center performance measures, establish
a corporate CSR turnover goal, and develop site-specific CSR retention strategies. The
Commissioner stated there was no evidence that these actions would cause turnover to
                                             4


be reduced. In addition, the Commissioner expressed concern that implementing these
recommendations will place an undo burden on management, may or may not have any
impact, and could have negative “unintended” consequences such as local
management not dealing with performance problems in an effort to reduce turnover.
The Commissioner, SB/SE Division, did not concur with our estimate of the potential
cost savings that could be realized by implementing the recommendations in this report.
The Commissioner stated the report did not assign specific benefits to each
recommendation, two of the recommendations are predicated upon negotiations with
the NTEU, and the Division did not agree with several of the recommendations. The
Commissioner stated that their research found that their current external turnover rate of
22.6 percent is below the turnover rate in comparable industry segments (e.g., Financial
Services – 25 percent, Consumer Products – 26 percent, and Insurance – 24 percent)
and that, in looking specifically at annual turnover of full-time inbound telephone service
representatives, public entities had a 22.8 percent turnover rate while Federal
Government agencies had a 26.2 percent turnover rate. However, the Commissioner
stated they would continue to work to improve their 22.6 percent CSR turnover rate.
Management’s complete response to the draft report is included as Appendix VI.
Office of Audit Comment: The Survey 2003 results indicated the SB/SE Division
primarily hired for seasonal CSR positions individuals that merely accepted the position
in anticipation of securing full-time, permanent employment with the IRS. We believe
this contributes to the turnover of seasonal employees; therefore, the SB/SE Division
should strive to increase its recruitment of individuals for the seasonal CSR position that
are more likely to be interested in seasonal employment only. To meet this objective,
the SB/SE Division needs to either expand the scope of the next annual survey or
develop a new survey containing questions specifically designed to determine the
traits/characteristics of the segment of the seasonal CSR workforce that returns
repeatedly every filing season. This type of information would help to position the
SB/SE Division to develop the appropriate recruiting/hiring strategies.
Our report acknowledged the positive actions the SB/SE Division has taken to extend
the duration of seasonal CSRs’ work seasons. The work season of the seasonal CSRs
has often been extended to accommodate the realignment of workloads due to the
recent IRS reorganization. However, management’s ability to amend seasonal work
agreements to reflect a 12-month work season expired on December 30, 2003. As a
result, the work season of seasonal CSRs may not be as long as in the past. Thus, we
continue to advocate that the SB/SE Division explore new ways, both within and outside
the IRS, to offer its seasonal CSRs longer work hours/work seasons.
We are encouraged that the Commissioner, SB/SE Division, is willing to explore the use
of behavioral interviewing techniques in the private sector to determine its applicability
to the CAS Accounts Management function. We view this alternative action as an
appropriate and reasonable step before considering whether our recommendation to
explore renegotiating the terms of the National Agreement with the NTEU should be
considered for implementation. In the interim, we continue to believe that developing a
job-preview video, illustrating a typical day of a CSR, would help to improve the
                                            5


effectiveness of the hiring process by maximizing the chances that the right candidates
are selected to fill the job. The main reason for turnover is lack of job fit. Therefore,
managing employee expectations of the job should start before employment begins. A
one-time investment in a video that demonstrates the positive and negative aspects of a
CSR job would enable internal and external applicants alike to better understand the
expectations and demands of the job before accepting it, thereby reducing turnover
costs in the long term.
We concur that the addition of “Annual Turnover” to the suite of corporate measures
may not directly result in the reduction of CSR turnover. In the call center industry,
however, turnover rate is a key performance indicator aggressively tracked and
managed. Like the other corporate measures used by the IRS for its call center
operations, the availability of an “Annual Turnover” measure would help to ensure CSR
turnover receives continuous scrutiny from upper-level management. Without a
corporate measure, upper-level management may not be timely alerted to
unsatisfactory turnover trends that require appropriate examination of hiring and
retention strategies. While some turnover is inevitable and desirable, we still believe
that goals and strategies to minimize turnover would assist the SB/SE Division in
reducing its costs to provide toll-free telephone services.
While we still believe all of our recommendations are worthwhile, we do not intend to
elevate our disagreement concerning these matters to the Department of the Treasury
for resolution.
Regarding the estimated cost savings that could be realized through the implementation
of our recommendations, the SB/SE Division currently does not have a system in place
to account for the costs of turnover. Therefore, to obtain an “estimate” of the
SB/SE Division’s turnover costs for its newly hired CSRs, we used a common formula
that yielded a cost of $7,564 for the average cost of replacement. Using this average
replacement cost figure, we computed the annual cost savings that might be achieved
by reducing new hire turnover from 22.6 percent to 15 percent, to demonstrate the
potential cost savings that could be realized by reducing turnover. Although we did not
assign specific monetary savings for each of the recommendations in the report, we
believe it is reasonable to expect that the implementation of all or some of the
recommendations should reduce turnover, resulting in lower costs, since they have
been successfully used throughout the call center industry. Any reduction of turnover –
even by a one-percentage point variation – results in notable cost savings for an
organization. While the actual annual cost savings could be more or less, depending
upon the actual cost of replacement and the reduction in turnover realized, we believe
our estimate was very conservative since 1 recent study of Federal Government call
centers determined the average cost of replacing a CSR in a Federal Government call
center was $9,985. In addition, when compared to costs at other Federal Government
call centers, the SB/SE Division’s cost to replace a CSR is likely to be higher than
average due to the extensive classroom and on-the-job training required to effectively
answer an array of incoming telephone calls. With such a high investment in training,
the SB/SE Division suffers a significant loss when a CSR leaves, losing knowledge and
                                            6


experience in complex tax subjects essential for providing quality service to small
businesses and self-employed individuals.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                  Table of Contents


Background ............................................................................................... Page 1
Management Has Taken Actions to Minimize
Customer Service Representative Turnover.............................................. Page 2
Turnover Remains a Challenge to Providing
Effective and Efficient Toll-Free Telephone Service ................................. Page 4
Recruiting and Work Scheduling Strategies Are Needed
to Increase the Retention of the Seasonal Workforce ............................... Page 13
         Recommendation 1: ...................................................................... Page 18
         Recommendation 2: ...................................................................... Page 21

Additional Improvements to the Screening and Hiring Processes
Could Further Reduce Turnover ................................................................ Page 23
         Recommendations 3 and 4: .......................................................... Page 28
         Recommendation 5: ...................................................................... Page 29

Better Data Are Needed to Reliably Determine the Extent,
Causes, and Costs of Turnover ................................................................. Page 30
         Recommendations 6 and 7: .......................................................... Page 34
         Recommendation 8: ...................................................................... Page 35

Management Accountability for Customer Service Representative
Turnover Should Be Increased .................................................................. Page 35
         Recommendation 9: ...................................................................... Page 37
         Recommendation 10: .................................................................... Page 38

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 39
Appendix II – Major Contributors to This Report........................................ Page 42
Appendix III – Report Distribution List ....................................................... Page 43
Appendix IV – Outcome Measures ............................................................ Page 44
Appendix V – Bibliography ........................................................................ Page 47
Appendix VI – Management’s Response to the Draft Report .................... Page 51
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  The Internal Revenue Service’s (IRS) toll-free telephone
Background
                                  system is the contact method most taxpayers choose when
                                  seeking answers to tax law questions or trying to resolve
                                  account-related issues. The IRS employs more than
                                  15,000 permanent and seasonal1 Customer Service
                                  Representatives (CSR) at 26 call centers, located throughout
                                  the United States and Puerto Rico, to answer incoming
                                  telephone calls, as well as paper correspondence, from
                                  taxpayers. The Customer Account Services (CAS)
                                  functions within the Small Business/Self-Employed
                                  (SB/SE) Division and Wage and Investment (W&I)
                                  Division are responsible for managing the IRS toll-free
                                  telephone system.
                                  The SB/SE Division serves 45 million taxpayers that pay
                                  $915 billion in individual, corporate, employment, and
                                  excise taxes. These customers include about 33 million
                                  fully or partially self-employed individuals and 7 million
                                  small business entities (including corporations and
                                  partnerships) with assets of $10 million or fewer. The
                                  SB/SE Division CAS Accounts Management function
                                  employs nearly 4,400 CSRs2 at 5 campus3 call centers and
                                  3 remote call centers.4 From October 2002 through
                                  April 2003, the CSRs at these 8 sites answered almost
                                  4.2 million5 taxpayer calls.
                                  Throughout the call center industry, CSR turnover is a
                                  chronic problem and a critical cost driver, resulting in direct

                                  1
                                    Seasonal employment involves annually recurring periods of
                                  employment totaling less than 12 months in a calendar year.
                                  2
                                    Employment data obtained from the IRS Workforce Information
                                  Reports for the pay period ending September 20, 2003.
                                  3
                                    A campus is an IRS location that houses customer service, compliance,
                                  and returns processing functions.
                                  4
                                    The number of SB/SE Division call centers was reduced from 13 to
                                  8 in October 2002 in an effort to balance the workload between the
                                  2 business operating divisions. The SB/SE Division campus call centers
                                  are located in Cincinnati, Ohio; Holtsville, New York;
                                  Memphis, Tennessee; Ogden, Utah; and Philadelphia, Pennsylvania.
                                  The remote call centers are located in Buffalo, New York;
                                  Nashville, Tennessee; and Oakland, California.
                                  5
                                    Call volume does not include 1.25 million Employer Identification
                                  Number (EIN) calls that were answered by EIN Tax Examiners rather
                                  than CSRs.
                                                                                                 Page 1
 The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
  Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                   costs associated with recruiting, hiring, and training
                                   replacements. Turnover can also result in indirect costs
                                   such as lower productivity, lower quality, and lower
                                   customer satisfaction. Call center managers throughout the
                                   industry maintain that the biggest challenge in operating a
                                   call center is “retaining great customer service agents” or,
                                   in other words, “minimizing telephone agent turnover.”6
                                   To perform this audit, we reviewed IRS records7 of CSR
                                   turnover in the SB/SE Division and interviewed managers at
                                   the SB/SE Division call centers located at three campus sites
                                   (Cincinnati, Ohio; Holtsville, New York; and Ogden, Utah)
                                   and one remote site (Buffalo, New York). To identify
                                   industry best practices for managing CSR turnover, we
                                   reviewed numerous books, publications, and Internet
                                   articles; interviewed consultants; and visited the Social
                                   Security Administration (SSA) in Baltimore, Maryland.
                                   The audit was performed between October 2002 and
                                   April 2003 in accordance with Government Auditing
                                   Standards. Detailed information on our audit objective,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   The turnover of CSRs in call centers varies significantly by
Management Has Taken Actions
                                   industry. While the IRS experiences a lower turnover rate
to Minimize Customer Service
                                   of CSRs than some call center industries, the cost of
Representative Turnover
                                   turnover at the IRS may be much higher. In contrast to
                                   many call center industries, the IRS invests heavily in
                                   extensive training to ensure its CSRs have sufficient
                                   knowledge to answer complex tax law and account-related
                                   questions.
                                   The IRS has demonstrated it recognizes the value of a stable
                                   and experienced CSR workforce and has identified the CSR
                                   job series,8 which represents its second largest occupational
                                   group, as one of its seven mission critical positions.
                                   Management at both the corporate level and the SB/SE

                                   6
                                     Anton and Rockwell, pp. xi, 19. Publishing information for citations
                                   in footnotes is listed in the Bibliography (see Appendix V).
                                   7
                                     We did not perform any independent testing to verify the accuracy of
                                   the turnover data obtained from the IRS.
                                   8
                                     The CSRs at the IRS are classified as Contact Representatives,
                                   GS-0962 Series, under Office of Personnel Management guidelines.
                                                                                                   Page 2
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  Division-level has implemented a number of human capital
                                  initiatives in recent years that should collectively help to
                                  reduce CSR turnover:
                                  •   The journeyman9 level for the CSR position was
                                      upgraded by one grade level prior to the major IRS
                                      reorganization that created the SB/SE Division in
                                      October 2000.
                                  •   An SB/SE Division Perm Hiring Strategy was
                                      developed to increase the ratio of permanent to seasonal
                                      employees. Generally, the ratio is set at a level that
                                      would enable the permanent staff to handle 90 percent of
                                      each call center’s workload based on the month with the
                                      lowest volume.
                                  •   A telephone assessment tool to test the competencies of
                                      candidates for the CSR position was piloted during the
                                      2002 Filing Season.10 The SB/SE Division CAS
                                      Accounts Management function used this tool in 2003
                                      for hiring CSRs from outside the IRS at its three remote
                                      call centers.
                                  •   A Division-wide exit interview was implemented for
                                      employees leaving the SB/SE Division.
                                  •   Employee satisfaction surveys are administered to the
                                      SB/SE Division call center workforce on an annual
                                      basis.
                                  •   The SB/SE and W&I Divisions have established a
                                      partnership to examine retention and career progression
                                      issues affecting the major occupations at the campuses.
                                  In addition, the SB/SE Division continues to address the
                                  turnover of the CSRs at its call centers through improved
                                  training programs and employee recognition initiatives.
                                  While no single cohesive CSR retention strategy appears to
                                  be in place for the SB/SE Division call centers, management
                                  at each of the call centers we visited had developed unique


                                  9
                                    Journeyman refers to the top grade level within a specific job series
                                  that an employee can achieve through noncompetitive promotions.
                                  10
                                     The period from January through mid-April when most individual
                                  income tax returns are filed.
                                                                                                    Page 3
 The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
  Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                    strategies designed to improve morale and engage
                                    employees, ultimately deterring turnover.
                                    While management has implemented a number of sound
Turnover Remains a Challenge to
                                    initiatives and taken positive actions to address it,
Providing Effective and Efficient
                                    CSR turnover remains a major factor that challenges the
Toll-Free Telephone Service
                                    IRS’ ability to effectively and efficiently provide toll-free
                                    telephone service. For instance, the SB/SE Division CAS
                                    Accounts Management function experienced the external
                                    turnover11 of 1,359 CSRs during Fiscal Years (FY) 2001 and
                                    2002. As shown in Figure 1, more than 80 percent of this
                                    external CSR turnover involved seasonal employees.
                                      Figure 1: External Turnover of Permanent/Seasonal CSRs in the
                                           SB/SE Division CAS Accounts Management Function
                                                           FYs 2001 and 200212


                                                       700
                                                       600
                                                       500
                                                       400
                                                       300
                                                       200
                                                       100
                                                         0
                                                              Permanent         Seasonal
                                                               Attrition         Attrition
                                                 FY 2001          128               609
                                                 FY 2002          106               516

                                    Source: “The State of Human Capital in SB/SE.”

                                    While the amount of external turnover is significant, the
                                    total CSR turnover is not known since the SB/SE Division
                                    had no readily accessible data showing the number of CSRs
                                    that had migrated to other jobs within the IRS (i.e., internal
                                    turnover). When CSR turnover occurs, direct costs are
                                    incurred for hiring and training replacements. In addition,
                                    CSR turnover can result in various indirect costs such as



                                    11
                                      External turnover refers to an employee separating from the IRS.
                                    12
                                      These data do not include the CSRs that migrated to other positions in
                                    the IRS.
                                                                                                    Page 4
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  lower productivity, poor quality, loss of experience, and
                                  lower customer satisfaction.
                                  The 2-year CSR turnover costs are estimated at almost
                                  $10.7 million
                                  The SB/SE Division did not have a systematic process for
                                  collecting the data necessary to precisely determine the
                                  actual cost of CSR turnover. In addition, the IRS had no
                                  data on all of the component costs of replacing a CSR.
                                  To estimate the CSR turnover costs, we considered a variety
                                  of approaches using the following guidelines and standards
                                  from both the private and public sectors:
                                  •    The average cost of bringing on a new CSR is $6,350
                                       across all call center industries.13
                                  •    The United States (U.S.) Department of Labor estimates
                                       employee turnover costs at least one-third of a new
                                       hire’s annual salary.
                                  •    The U.S. Merit Systems Protection Board estimates a
                                       cost of $5,000 – $7,000 for hiring the wrong person for
                                       an entry level, full-time position.
                                  •    A recent study14 showed the average cost of bringing on
                                       a new CSR at Federal Government call centers is
                                       $9,985.
                                  •    Many human resource experts estimate the average cost
                                       of replacing a lost employee is, at a minimum,
                                       25 percent of the annual compensation (i.e., salary plus
                                       benefits).15
                                  While these guidelines and standards do not assure the level
                                  of accuracy a cost accounting system would provide, they
                                  can provide an estimate of the considerable cost of CSR
                                  turnover. Using the latter approach (i.e., 25 percent of the




                                  13
                                     Anton and Rockwell, p. 3.
                                  14
                                     Anton, Government Call Centers Performance Benchmark Report,
                                  p. 53.
                                  15
                                     Employment Policy Foundation, p. 2.
                                                                                             Page 5
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  annual compensation),16 we estimate the SB/SE Division
                                  CAS Accounts Management function’s external turnover
                                  costs during FYs 2001 and 2002 were almost $10.7 million.
                                  As shown in Figure 2, these costs are principally due to the
                                  high turnover among the seasonal CSR workforce.
                                         Figure 2: Estimated Cost of External Turnover of CSRs
                                       in the SB/SE Division CAS Accounts Management Function




                                         Fiscal Year   Permanent CSRs   Seasonal CSRs     Total CSRs
                                           2001        $1.27 Million    $4.41 Million    $5.68 Million
                                           2002        $1.10 Million    $3.90 Million    $5.00 Million

                                  Source: “The State of Human Capital in SB/SE.”17

                                  Not included in these costs is the cost of internal turnover, a
                                  common occurrence at the campus call centers since
                                  employees frequently migrate to other positions within an
                                  IRS campus. Because the amount of internal turnover is not
                                  routinely tracked, the total turnover among CSRs in the
                                  SB/SE Division CAS Accounts Management function is
                                  unknown. Therefore, the actual CSR turnover costs during
                                  FYs 2001 and 2002 undoubtedly were significantly higher
                                  than $10.7 million.



                                  16
                                     This approach was selected because it uses a Turnover Cost Formula
                                  that easily allows any organization to quantify its cost of turnover.
                                  17
                                     Generic Turnover Cost Formula: ((Annual Salary + Benefits) X .25)
                                  X (Number of Employees That Left the Job) = Cost of Turnover. This
                                  formula gives the average cost of replacing an employee, which when
                                  multiplied by the number of departing employees, provides the cost of
                                  turnover. Still, this formula does not capture all costs, as many are
                                  difficult to quantify.
                                                                                                 Page 6
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  From this starting point, we evaluated these other factors
                                  that require consideration in CSR turnover costs:
                                  •    Seasonal and permanent CSR turnovers differ in type
                                       and costs.
                                  •    CSR entry-level training costs are considerable but
                                       unknown.
                                  •    CSR turnover is highest among new hires.
                                  Seasonal and permanent CSR turnovers differ in type
                                  and costs
                                  To determine the extent of the migration of CSRs to other
                                  jobs, we analyzed data from the IRS payroll system for the
                                  pay periods ending October 19, 2002, through
                                  May 17, 2003.18 These data showed more than two-thirds of
                                  the CSR turnover in the SB/SE Division CAS Accounts
                                  Management function was external and almost one-third
                                  was internal. Applying a turnover cost based on 25 percent
                                  of a CSR’s annual compensation, we estimate seasonal
                                  CSRs were responsible for almost 75 percent of the external
                                  turnover costs and permanent CSRs were responsible for
                                  more than 70 percent of the internal turnover costs.
                                  Based on these payroll data, we estimate the cost to replace
                                  a full-time, seasonal CSR is $7,962 and the cost to replace a
                                  full-time, permanent CSR is $10,923.19 As expected, the
                                  cost to replace permanent CSRs is higher, since their
                                  extensive knowledge and experience make them more
                                  valuable. Thus, while the total internal turnover costs may
                                  be less than the total external turnover costs, the unit costs
                                  are higher due to the loss of what are often the most
                                  experienced and talented CSRs.



                                  18
                                     Data obtained from the IRS Strategic Human Resources Workforce
                                  Planning.
                                  19
                                     Costs were determined by a commonly used human resource industry
                                  computation for average cost of replacement. In reviewing an advance
                                  copy of this report, SB/SE Division CAS management stated the
                                  replacement cost of a full-time, permanent CSR is overstated since these
                                  positions are replaced by a full-time, seasonal CSR instead of an
                                  employee with no previous training.
                                                                                                  Page 7
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  Training costs for entry level CSRs are considerable but
                                  unknown
                                  Entry-level training costs are driven by CSR turnover. The
                                  IRS’ cost to train a newly hired CSR has been estimated to
                                  be at least three times that of a return-to-duty employee.
                                  We were advised the SB/SE Division had no specific
                                  information on its cost to provide entry-level CSR training
                                  because both the type and amount of training vary from call
                                  center to call center. Whereas the remote call centers
                                  generally hire external applicants with no prior IRS
                                  knowledge or experience, the campus call centers tend to
                                  hire more internal applicants with different skill sets.
                                  What is known, however, is that the training to handle calls
                                  from self-employed taxpayers and small business taxpayers
                                  is extensive because of the tax law complexity. Therefore,
                                  training is likely a much more significant cost factor for the
                                  SB/SE Division CAS Accounts Management function than
                                  it would be for many other types of call center operations.
                                  Although training can vary from call center to call center, a
                                  new CSR is generally required to complete about 8 weeks of
                                  technical classroom training, receive telephone skills
                                  training, and work with an on-the-job coach for several
                                  weeks. Some of the IRS managers we interviewed stated at
                                  least a 2-year training period is needed to bring a new CSR
                                  up to the full performance level.
                                  Between October 1, 2002, and March 19, 2003, the
                                  SB/SE Division CAS Accounts Management function
                                  provided nearly 127,000 hours of classroom instruction to
                                  its newly hired CSRs. At a minimum, the salary cost for
                                  this entry-level training was approximately $1.5 million.
                                  These training costs are a huge investment that can be
                                  essentially lost if the new CSRs stay with the IRS for only a
                                  short period or do not return for another filing season.




                                                                                         Page 8
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  CSR turnover is highest among new hires
                                  A recent General Accounting Office (GAO) report20 cited
                                  that, according to human resource experts, new employees
                                  typically leave at higher rates than all other employees.
                                  Therefore, it is not surprising that the turnover in the SB/SE
                                  Division CAS Accounts Management function was
                                  relatively high among its newly hired CSRs. As shown in
                                  Figure 3, the new hire turnover rate during FY 2002 ranged
                                  from 19 percent to 28 percent at 4 of the 5 campus call
                                  centers.
                                          Figure 3: FY 2002 New Hire Turnover Rates at the Five
                                           SB/SE Division CAS Accounts Management Function
                                                          Campus Call Centers

                                                            Ne w Hi re Attri ti on for S B /S E C am pu s C al l C e n te rs



                                                                                                                       28%
                                       Philade lphia
                                                                      4%
                                             Ogde n
                                                                                                                    26%
                                          M e m phis
                                                                                                                     27%
                                         Cincinnati
                                                                                                       19%
                                       Brook have n

                                                       0%        5%        10%       15%       20%       25%       30%

                                                                       FY 2002, as of June 2002

                                  Source: FY 2002 SB/SE Division Accounts Management “CSR”
                                  Recruitment/Attrition Summary W/E21 June 1, 2002.”


                                  Similarly, Figure 4 shows the turnover rates among newly
                                  hired CSRs at the three SB/SE Division CAS Accounts
                                  Management function remote call centers have also been
                                  relatively high and generally increasing.




                                  20
                                     Veterans Benefits Administration: Better Collection and Analysis of
                                  Turnover Data Needed to Enhance Workforce Planning (GAO-03-491,
                                  dated April 2003).
                                  21
                                     W/E represents “Week Ending.”
                                                                                                                      Page 9
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                       Figure 4: FY 2001 – FY 2003 New Hire Turnover Rates at the
                                        Three SB/SE Division CAS Accounts Management Function
                                                          Remote Call Centers


                                                                                                     60%
                                                                                                     50%
                                                                                                     40%
                                                                                                     30%
                                                                                                     20%
                                                                                                     10%
                                                                                                     0%
                                                                  Buffalo   Nashville    Oakland

                                       FY 2001, as of June 2001    16%        28%          32%

                                       FY 2002, as of June 2002    20%        40%          41%

                                       FY 2003, as of June 2003    28%        53%          39%


                                  Source: The SB/SE Division Accounts Management Hiring and
                                  Attrition Summary.

                                  The high turnover rate at the remote call centers may be
                                  attributable to the different work demands. At the campus
                                  call centers, CSRs frequently work taxpayer correspondence
                                  and amended returns in addition to taking incoming calls
                                  from taxpayers. At the remote call centers, CSRs spend a
                                  greater portion of their work time on the telephone since no
                                  other work is available.
                                  During the 2003 Filing Season, the SB/SE Division CAS
                                  Accounts Management function tracked the turnover of its
                                  newly hired CSRs by comparing it to the number that had
                                  committed22 to accept CSR jobs for the filing season.
                                  Figure 5 shows that, as of February 22, 2003,
                                  100 (23.8 percent) of the 420 seasonal new hires that
                                  committed for CSR positions during the 2003 Filing Season
                                  subsequently had withdrawn from pursuing the CSR
                                  position, had failed to report for duty, or had already
                                  separated after starting training or work as a CSR.


                                  22
                                    A commitment means the IRS had sent the person a letter with a
                                  reporting date as a new CSR.
                                                                                                 Page 10
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                         Figure 5: New Hire Turnover by Individuals Committed for
                                       the CSR or Tax Examiner23 Jobs During the 2003 Filing Season


                                         450

                                         400

                                         350

                                         300

                                         250

                                         200

                                         150

                                         100

                                          50

                                           0      N um be r
                                                                                                  N e w H ire       T o tal
                                                C o m m it t e d   Wit hdra wa ls   N o S ho ws
                                                                                                  A t t rit io n   Lo s s e s
                                                  fo r Jo b
                                         C SR        420                 6              32             62             10 0
                                         T/E         354                 0               2             23             25

                                  Source: FY 2003 SB/SE Division CAS Accounts Management Hiring
                                  and Attrition Summary, as of February 22, 2003.

                                  Figure 5 also shows the turnover rate among newly hired
                                  CSRs (23.8 percent) was considerably higher than that for
                                  newly hired Tax Examiners (7.1 percent) during the same
                                  time period. The Tax Examiner position is located only at
                                  the campus sites, whereas the CSR position exists at both
                                  the campus and remote sites. At the campus call centers,
                                  management can select applicants from other areas, such as
                                  the Submission Processing or Compliance functions, and/or
                                  from outside the IRS. In contrast, management does not
                                  have this option at the remote call centers and, instead, must
                                  hire all applicants from outside the IRS. Thus, the higher
                                  turnover rate for the CSRs is perhaps attributable not only to

                                  23
                                    Tax Examiners handle paper workload that includes notices, taxpayer
                                  correspondence, amended returns, and internally generated inquiries.
                                  They are not trained to work the telephones.
                                                                                                                    Page 11
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  the stress of telephone work but also to the greater number
                                  of hires from outside the IRS for the seasonal CSR position.
                                  At our request, the IRS Agency-Wide Shared Services
                                  (AWSS) Personnel Operations function estimated that,
                                  excluding the training costs, the average cost for each CSR
                                  hired externally was $896 and that the average cost for each
                                  CSR hired internally was $96. Hiring individuals from
                                  outside the IRS was significantly more expensive due to
                                  advertising, testing, and screening costs.
                                  Figure 6 shows our estimate of the SB/SE Division CAS
                                  Accounts Management function’s costs associated with the
                                  early turnover of 100 newly hired CSRs during the
                                  2003 Filing Season.
                                       Figure 6: Costs of Losing Individuals Committed for CSR
                                                  Positions, as of February 22, 2003


                                      $600,000                                                  $519,945
                                                                                $493,897

                                      $500,000

                                      $400,000

                                      $300,000

                                      $200,000
                                                                  $25,472
                                                        $576
                                      $100,000

                                           $0
                                                   Cost of     Cost of No   Cost of New      Total Costs
                                                 Withdrawals    Shows       Hire Attrition


                                  Source: FY 2003 SB/SE Division CAS Accounts Management Hiring
                                  and Attrition Summary/AWSS-Personnel Operations/Advantage Hiring
                                  Web Site.

                                  There are four broad areas in which we believe SB/SE
                                  Division management has opportunities to take further
                                  action to lower the cost of providing toll-free telephone
                                  service by reducing the Division’s CSR turnover:
                                  •   Developing recruiting and work scheduling strategies
                                      for retaining more of the Division’s seasonal CSRs.

                                                                                                       Page 12
 The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
  Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                    •    Expanding upon ongoing efforts to improve the
                                         applicant screening process to more effectively ensure
                                         that new hires are a good “fit” for the CSR position.
                                    •    Improving the tracking and analysis of the causes and
                                         costs of CSR turnover.
                                    •    Increasing management accountability for reducing CSR
                                         turnover.
                                    The remainder of this report discusses these areas and
                                    includes our specific recommendations for management’s
                                    consideration. The implementation of our recommendations
                                    should reduce CSR turnover, resulting in cost savings.
                                    Based on an estimated cost of $7,564 for losing a newly
                                    hired CSR during the 2002 Filing Season, reducing the new
                                    hire CSR turnover to 15 percent would render an annual
                                    cost savings of approximately $650,000.24
                                    Assembling a sufficient workforce to meet the demand for
Recruiting and Work Scheduling
                                    service by small business and self-employed customers each
Strategies Are Needed to Increase
                                    filing season is very important. During the filing season, the
the Retention of the Seasonal
                                    IRS generally handles as many calls as it does during the
Workforce
                                    rest of the year combined. Like the IRS as a whole, the
                                    SB/SE Division CAS Accounts Management function’s
                                    workload, both telephone and paper, is cyclical in nature.
                                    Therefore, both permanent and seasonal employees are
                                    required to meet the demand for service.
                                    The SB/SE Division CAS Accounts Management function’s
                                    focus on managing its CSR workforce is on filing season
                                    readiness. During their annual filing season readiness
                                    planning, the SB/SE Division’s call center managers
                                    determine how many resources they need to meet the
                                    projected call volume and the service goals/measures. In
                                    August and September, the managers send letters to the
                                    seasonal CSRs that have been furloughed25 to determine
                                    whether they will return for the next filing season. Based on


                                    24
                                       Appendix IV shows the methodology for calculating these estimated
                                    cost savings.
                                    25
                                       A furlough is the placing of an employee in a temporary nonduty,
                                    nonpay status because of lack of work or funds or for other
                                    nondisciplinary reasons.
                                                                                                 Page 13
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  the number of seasonal CSRs that indicate they will return,
                                  the call center managers calculate the number of additional
                                  CSRs they will need for the filing season and notify their
                                  local servicing personnel function of the number of CSRs
                                  that need to be hired.
                                  The IRS hires seasonal CSRs with a promise of only a few
                                  months of work and a possibility that they may be converted
                                  to permanent status at a later date.26 According to a report
                                  by the U.S. Merit Systems Protection Board,27 these
                                  seasonal jobs have proven difficult to recruit for in some
                                  instances and, in some cases, a shortage of applicants has
                                  prompted the IRS to hire almost anyone who passes the
                                  written test and the background check.
                                  Table 1 illustrates the SB/SE Division CAS Accounts
                                  Management function’s heavy reliance (i.e., over
                                  40 percent) on seasonal help to meet the anticipated
                                  demands of the 2003 Filing Season.
                                        Table 1: CSR Staffing Employed on January 11, 2003,
                                        SB/SE Division CAS Accounts Management Function
                                   Call Center        Full-Time         Seasonal           Other
                                   Brookhaven            594               412               46
                                   Cincinnati            307               296               4
                                   Memphis               536               287               10
                                   Ogden                 539               440               33
                                   Philadelphia          526               513               8
                                       Total            2,502             1,948             101
                                  Source: Treasury Integrated Management Information System
                                  Management Information Reports, available on the IRS Intranet
                                  Research Center under IRS Resources.

                                  The SB/SE Division CAS Accounts Management function’s
                                  reliance on a seasonal workforce makes turnover more
                                  likely and managing the toll-free telephone operation more
                                  difficult. As previously discussed, more than 80 percent of

                                  26
                                    All permanent CSR jobs are filled from the seasonal CSR workforce.
                                  27
                                    U.S. Merit Systems Protection Board, Competing for Federal Jobs:
                                  Job Search Experiences of New Hires, p. 13.
                                                                                              Page 14
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  the CSRs that were lost to external turnover in FYs 2001
                                  and 2002 were seasonal employees. The following provides
                                  specific examples of the differences in turnover among
                                  seasonal and permanent CSRs:
                                  •   Analysis of the IRS payroll data for October 2002
                                      through May 2003 showed seasonal CSRs comprised
                                      41 percent of the CSR workforce, yet they accounted for
                                      two-thirds of the CSR turnover and almost 60 percent of
                                      the turnover costs. Eighty-two percent of the turnover
                                      by seasonal CSRs was external.
                                  •   Managers at 1 of the remote call centers stated their
                                      external turnover rate in FY 2001 was 8 percent for
                                      permanent CSRs and 24 percent for seasonal CSRs.
                                  •   Managers at a second remote call center reported their
                                      external turnover rate in FY 2002 was 5 to 15 percent
                                      for permanent CSRs and 25 to 30 percent for seasonal
                                      CSRs.
                                  •   Managers at 1 of the campus call centers reported their
                                      external turnover rate was 16 percent for permanent
                                      CSRs and 32 percent for seasonal CSRs.
                                  The IRS’ experience with the frequent turnover of its
                                  seasonal CSRs mirrors that of the entire call center industry.
                                  Therefore, with such a large dependence on a seasonal
                                  workforce, high turnover is not unexpected. While some
                                  seasonal employees are college students or retirees that are
                                  interested only in temporary employment, seasonal
                                  employees that are looking for full-time employment will
                                  often leave, or not return for the following filing season, if
                                  they do not secure a permanent job with the IRS. Turnover
                                  among seasonal employees is especially high in areas with
                                  high costs of living. The SB/SE Division, as does the IRS
                                  in general, has many call centers located in or near major
                                  metropolitan areas with high costs of living. Turnover
                                  among seasonal employees is also high when the employee
                                  is given less than a full-time schedule, requiring high
                                  scheduling flexibility.
                                  Past internal studies have pointed to the IRS’ heavy reliance
                                  on seasonal employees as a significant factor in CSR
                                  turnover and certain productivity measures:
                                                                                        Page 15
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  •    The IRS Office of Performance Evaluation and Risk
                                       Analysis (OPERA) examined28 the links between
                                       personnel actions and turnover and the patterns of
                                       migration from job to job for both competitive and
                                       noncompetitive assignments. While the primary
                                       concern of this study was not with the turnover of the
                                       CSRs, many of the findings are relevant.
                                       The study found the majority of hiring actions were for
                                       seasonal employees to meet filing season demands and
                                       to fill vacancies caused by the turnover of seasonal
                                       employees. For example, the IRS selected
                                       30,000 individuals to fill 20,000 seasonal positions
                                       through the third quarter of FY 2002.
                                       The study also found that, during FYs 2001 and 2002,
                                       there were almost 24,00029 employee migrations into
                                       and out of the CSR job series. These inflows and
                                       outflows represented changes in job series only and did
                                       not represent hiring and turnover. The study identified
                                       two types of “bad” migration – job hopping and cycling.
                                       Cycling is defined as changing job series, staying in the
                                       new job series less than a year, and then returning to the
                                       old job series. Based on observations shared with us by
                                       some call center managers, cycling may be a problem
                                       with the seasonal CSR position.
                                  •    The W&I Division, which has call centers located
                                       throughout the country to answer telephone inquiries
                                       from individual taxpayers, examined the staffing
                                       patterns at both the SB/SE and W&I Division call
                                       centers for FY 2001. The study showed new hires
                                       comprised almost 20 percent of the CSR workforce at
                                       the call centers and seasonal employees made up over
                                       40 percent of the workforce. The study also showed
                                       that, overall, the external turnover was 19.7 percent for
                                       campus call centers and 28.4 percent for remote call
                                       centers.


                                  28
                                     The study was performed as a result of former IRS Commissioner
                                  Charles O. Rossotti’s concern about the high number of personnel
                                  actions for bargaining unit employees.
                                  29
                                     Total includes both SB/SE and W&I Division employees.
                                                                                              Page 16
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                       The study also analyzed two measures of call center
                                       productivity (Calls Per Hour30 and Average Handle
                                       Time31) and found the higher the percentage of
                                       permanent employees and the lower the percentage of
                                       seasonal employees, the higher the productivity.
                                  The SB/SE Division has implemented a Perm Hiring
                                  Strategy
                                  As a result of the IRS reorganization into business operating
                                  divisions in 2000 and the subsequent realignment of work,
                                  the SB/SE Division CAS workload was expected to become
                                  more level and, in turn, able to support a higher number of
                                  permanent positions. In March 2001, the former IRS
                                  Commissioner approved the implementation of an SB/SE
                                  Perm Hiring Strategy to increase the ratio of permanent to
                                  seasonal employees32 at the SB/SE Division CAS Accounts
                                  Management sites. In FY 2003, the CAS Accounts
                                  Management function received approval to hire
                                  272 permanent employees.
                                  The transition of work between the new operating divisions
                                  has resulted in the IRS’ historical workload data being
                                  ineffective for determining the appropriate staffing levels.
                                  Therefore, the Office of Personnel Management has
                                  authorized the IRS to permit seasonal employees to work
                                  beyond the time periods in their seasonal work agreements
                                  through December 30, 2003. As a result, the IRS is
                                  currently permitted to have seasonal employees work in the
                                  same seasonal position for 12 consecutive months without
                                  converting the position to a permanent position. Prior to
                                  this authorization, seasonal employment was defined as
                                  annually recurring periods of work of less than 12 months a
                                  year.
                                  While the SB/SE Perm Hiring Strategy should allow for a
                                  higher ratio of permanent to seasonal CSRs, the SB/SE
                                  Division CAS function will continue to rely on seasonal


                                  30
                                     The average number of calls a CSR handles per hour.
                                  31
                                     The average of the sum of the CSR’s talk time and after-call work
                                  time per call.
                                  32
                                     Seasonal employees may work full-time, part-time, or unscheduled
                                  work schedules and may periodically be placed in nonpay status.
                                                                                                Page 17
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  employees to supplement its workforce to meet its workload
                                  demands.

                                  Recommendations

                                  To increase the retention of seasonal CSRs, the Director,
                                  CAS, SB/SE Division, and the Director, Human Resources,
                                  SB/SE Division, should coordinate to:
                                  1. Develop a recruiting strategy that targets individuals that
                                     may want only seasonal employment. This could be
                                     accomplished by surveying experienced seasonal CSRs
                                     to identify the reasons they elect to return each filing
                                     season. While some seasonal employees continue
                                     employment as a potential path to securing permanent
                                     positions, only 14.3 percent of the seasonal employees
                                     that stayed with the IRS from 1997 to 2001 had
                                     converted to permanent positions.33 Personnel
                                     specialists indicate one reason some individuals prefer a
                                     seasonal work schedule is to supplement their Social
                                     Security benefits and/or obtain health care insurance.
                                       Management’s Response: The Commissioner, SB/SE
                                       Division, stated Survey 2003, which was available to all
                                       employees, included specific questions for seasonal
                                       employees relative to why they accepted seasonal
                                       employment; thus, a separate survey as recommended in
                                       the report would be redundant. The Commissioner
                                       added that the Survey 2003 results indicated a majority
                                       of seasonal employees return to obtain full-time,
                                       permanent employment. The Commissioner did not
                                       believe a survey of seasonal employees will provide
                                       meaningful data since the Division has found a majority
                                       of CSRs leave for higher-graded positions or
                                       lower-graded permanent positions.
                                       The Commissioner, SB/SE Division, also stated that a
                                       Perm Hiring Strategy has been developed to analyze
                                       permanent staffing needs at least annually to determine


                                  33
                                    IRS study, Whatever Happened to the Class of ’97?, which tracked
                                  the job path of 10,790 individuals hired between April 1996 and
                                  April 1997 for seasonal positions at 10 Submission Processing centers.
                                                                                                Page 18
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                     if the ratio of permanent to seasonal employees should
                                     be increased. The ratio will be set at a level that would
                                     enable the permanent staff to handle 90 percent of each
                                     call center’s workload based on the month with the
                                     lowest volume. The Commissioner contended this
                                     strategy would enable the SB/SE Division to retain the
                                     skills of its experienced CSRs.
                                     The Commissioner, SB/SE Division, did not concur
                                     with our estimate of the potential cost savings that could
                                     be realized because the report did not assign specific
                                     benefits to each recommendation, two of the
                                     recommendations are predicated upon negotiations with
                                     the National Treasury Employees Union (NTEU), and
                                     the Division did not agree with several of the
                                     recommendations. The Commissioner also stated their
                                     research found that their current external turnover rate of
                                     22.6 percent is below the turnover rate in comparable
                                     industry segments (e.g., Financial Services – 25 percent,
                                     Consumer Products – 26 percent, and Insurance –
                                     24 percent) and that, in looking specifically at annual
                                     turnover of full-time inbound telephone service
                                     representatives, public entities had a 22.8 percent
                                     turnover rate while Federal Government agencies had a
                                     26.2 percent turnover rate. However, the Commissioner
                                     stated they would continue to work to improve their
                                     22.6 percent CSR turnover rate.
                                     Office of Audit Comment: This report acknowledged
                                     the implementation of the Perm Hiring Strategy, which
                                     should increase the ratio of permanent to seasonal
                                     employees. In addition, this report recognized the
                                     extended duration of the work seasons for seasonal
                                     CSRs. However, these actions will not negate the
                                     SB/SE Division’s continuing need for a seasonal CSR
                                     workforce to meet the demands of each filing season.
                                     Further, seasonal CSRs will still be subject to furlough
                                     periodically.
                                     With regard to Survey 2003, the results were clear that
                                     the SB/SE Division is primarily hiring for seasonal CSR
                                     positions individuals that merely accept the position in
                                     anticipation of securing full-time, permanent

                                                                                        Page 19
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                     employment with the IRS. We believe this contributes
                                     to the turnover of seasonal employees. Often, these
                                     seasonal CSRs are successful in either obtaining a
                                     full-time, permanent CSR job or, just as likely, finding
                                     another full-time, permanent job elsewhere in the IRS.
                                     These losses do not include those individuals that quit
                                     the seasonal CSR position for another position in the
                                     private sector. Thus, the SB/SE Division is continually
                                     expending funds on the hiring and training of new
                                     individuals – whether internal or external – to fill the
                                     ranks of the seasonal CSR workforce every filing
                                     season.
                                     We continue to believe the SB/SE Division should strive
                                     to increase its recruitment of individuals for seasonal
                                     CSR positions to those that are more likely to be
                                     interested in seasonal employment only. To meet this
                                     objective, the SB/SE Division needs to either expand the
                                     scope of the next annual survey or develop a new survey
                                     containing questions specifically designed to determine
                                     the traits/characteristics of the segment of the seasonal
                                     CSR workforce that returns repeatedly every filing
                                     season. This type of information would help to position
                                     the SB/SE Division to develop the appropriate
                                     recruiting/hiring strategies. In the future, increasing the
                                     segment of the seasonal CSR population that is satisfied
                                     with seasonal work may be even more critical because
                                     the IRS campus locations will have less flexibility in
                                     extending the work seasons of seasonal CSRs due to the
                                     closure of some Submission Processing sites.
                                     The SB/SE Division currently does not have a system in
                                     place to account for the costs of turnover. Therefore, to
                                     obtain an “estimate” of the SB/SE Division’s cost of
                                     turnover for its newly hired CSRs, we used a common
                                     formula that yielded a cost of $7,564 for the average
                                     cost of replacement. Using this average replacement
                                     cost figure, we computed the annual cost savings that
                                     might be achieved by reducing new hire turnover from
                                     22.6 percent to 15 percent, to demonstrate the potential
                                     cost savings that could be realized by reducing turnover.
                                     Although we did not assign specific monetary savings
                                     for each of the recommendations in the report, we

                                                                                        Page 20
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                       believe it is reasonable to expect that the implementation
                                       of all or some of the recommendations should reduce
                                       turnover, resulting in lower costs, since they have been
                                       successfully used throughout the call center industry.
                                       Any reduction of turnover – even by a one-percentage
                                       point variation – results in notable cost savings for an
                                       organization.
                                       While the actual annual cost savings could be more or
                                       less than estimated, depending upon the actual cost of
                                       replacement and the reduction in turnover realized, we
                                       believe our estimate was very conservative since 1
                                       recent study of Federal Government call centers
                                       determined the average cost of replacing a CSR in a
                                       Federal Government call center was $9,985. In addition,
                                       when compared to costs at other Federal Government
                                       call centers, the SB/SE Division’s cost to replace a CSR
                                       is likely to be higher than average due to the extensive
                                       classroom and on-the-job training required to effectively
                                       answer an array of incoming telephone calls. With such
                                       a high investment in training, the SB/SE Division
                                       suffers a significant loss when a CSR leaves, losing
                                       knowledge and experience in complex tax subjects
                                       essential for providing quality service to small
                                       businesses and self-employed individuals.
                                  2. Explore ways to increase the work hours/work season of
                                     seasonal CSRs to avert the need to furlough them for
                                     extended periods. Approaches that have been
                                     successfully used throughout the call center industry
                                     include providing filler work (e.g., email inquiries)
                                     during telephone lag times; “staff-sharing” with other
                                     Federal Government agencies or private call centers as a
                                     means to cost-effectively manage seasonal workload
                                     peaks and valleys and perhaps lengthen the work season
                                     for the seasonal workforce;34 offering split shifts,
                                     part-time shifts, or mixed tours of duty to attract
                                     individuals such as college students requiring flexible


                                  34
                                    The IRS’ former Pacific Northwest District piloted a concept with
                                  Eddie Bauer, Inc. The IRS CSRs answered taxpayer questions during
                                  the filing season and took telephone orders during Eddie Bauer’s peak
                                  Christmas season.
                                                                                                Page 21
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                     scheduling; and establishing work-study programs with
                                     local colleges that would provide education credits for
                                     the CSR training and on-the-job experience.
                                     Management’s Response: The Commissioner, SB/SE
                                     Division, stated that CSRs in the Accounts Management
                                     function generally work longer seasons than other
                                     seasonal employees in the CAS function and that
                                     ongoing practices are in place to extend the duration of
                                     seasonal employees’ work seasons. The Commissioner
                                     noted several measures have been taken to provide as
                                     much work time for seasonal employees as permitted
                                     within resource allocation and workload demands. For
                                     example, training is arranged to coincide with times
                                     during which call demand is not as high. Also, “paper”
                                     is used to balance the workload. In addition, if a campus
                                     is planning to release seasonal employees, the Directors
                                     work together to determine if work is available in other
                                     campus components. The Commissioner added there is
                                     an arrangement with the Federal Emergency
                                     Management Agency (FEMA) so that, in case of natural
                                     disasters, seasonal employees can be provided to answer
                                     FEMA calls. Job sharing with both the private sector
                                     and other Government agencies has been explored in the
                                     past and found to be unworkable. Now, it is further
                                     unworkable due to the short release periods experienced
                                     by CSRs.
                                     The Commissioner believes the measures already taken
                                     are the most cost-efficient and beneficial to the
                                     organization and its employees. However, the Division
                                     will continue to explore any and all options to keep
                                     employees working longer.
                                     Office of Audit Comment: This report acknowledged
                                     the positive actions the SB/SE Division has taken to
                                     extend the duration of seasonal CSRs’ work seasons.
                                     However, some of the key initiatives, such as using
                                     CSRs in the Submission Processing function, are
                                     primarily applicable to the campus locations. In the
                                     future, though, some campus locations may be more
                                     constrained in shifting CSRs to other work areas due to
                                     the closure of Submission Processing sites. Still, the

                                                                                      Page 22
 The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
  Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                        campus sites can continue to use “paper” to balance the
                                        workload. However, management at the remote call
                                        sites has fewer options for increasing the work
                                        hours/work seasons of their CSRs.
                                        The work season of the seasonal CSRs has often been
                                        extended to accommodate the realignment of workloads
                                        due to the recent IRS reorganization. However,
                                        management’s ability to amend seasonal work
                                        agreements to reflect a 12-month work season expired
                                        on December 30, 2003. As a result, the work season of
                                        seasonal CSRs may not be as long as in the past. The
                                        longer the furlough, the less likely it is that a seasonal
                                        CSR will return for the next filing season. In these
                                        instances, management will have to hire replacement
                                        CSRs, thus incurring more costs. For these reasons, we
                                        continue to encourage the SB/SE Division to explore
                                        new ways, both within and outside the IRS, to offer its
                                        seasonal CSRs longer work hours/work season.
                                   With turnover being one of the greatest challenges for call
Additional Improvements to the
                                   centers, it is crucial to hire CSRs with the right attitude and
Screening and Hiring Processes
                                   right commitment for what is a very difficult job. A
Could Further Reduce Turnover
                                   national survey35 of executives identified lack of job “fit” as
                                   the main reason for turnover. According to a recent study
                                   by Manchester, Inc., more careful selection in the hiring of
                                   front-line employees results in reducing turnover by
                                   57 percent.36
                                   As previously discussed in this report, it is extremely costly
                                   for the SB/SE Division CAS Accounts Management
                                   function to recruit, hire, and train employees that are unable
                                   or unwilling to perform the duties of the position for which
                                   they were hired. Therefore, improving the selection process
                                   for hiring the CSRs may be management’s most powerful
                                   weapon against costly turnover.




                                   35
                                      National survey of executives conducted by Caliper, a psychological
                                   testing and human resources consulting firm.
                                   36
                                      Hauenstein, “How Do I Reduce Turnover? Let Me Count the Ways,”
                                   p. 3.
                                                                                                Page 23
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  A new Telephone Assessment Program (TAP) is being
                                  used in testing external CSR applicants
                                  All external candidates for CSR positions at the IRS are
                                  required to take a written civil service test. Historically, the
                                  call center group managers have then interviewed and
                                  selected from those candidates that achieved a passing grade
                                  on the test.
                                  To relieve the administrative burden of interviewing CSR
                                  candidates, improve its ability to select individuals suitable
                                  for the CSR position, and reduce turnover, the IRS searched
                                  for a selection tool. In May 2001, the IRS awarded a
                                  contract to a private-sector vendor to design and develop the
                                  customized TAP. With the TAP, external candidates still
                                  take the written civil service test. However, in lieu of the
                                  traditional interview by the call center managers, the TAP is
                                  used to test candidates through live telephone role-play
                                  simulation on a variety of critical job-related skills for the
                                  CSR position.37 Assessors from the contractor evaluate and
                                  score the candidates’ handling of the simulated calls. The
                                  scores are adjusted to meet the call center’s hiring goals for
                                  the filing season. A candidate who passes the telephone
                                  assessment can then be selected for a CSR position.
                                  The IRS piloted the TAP at 6 remote call centers38 during
                                  the 2002 Filing Season. The new-hire retention rate at these
                                  6 call centers, through March 23, 2002, was 85 percent. By
                                  comparison, the new-hire retention rate was 74 percent at
                                  the control call centers that did not use the TAP. The IRS
                                  concluded the TAP enabled it to select higher-quality
                                  employees, as well as employees that remain with the IRS
                                  longer than those hired through traditional methods.
                                  The SB/SE Division CAS Accounts Management function
                                  used the TAP for hiring seasonal CSRs at its remote call
                                  centers in FY 2003. In FY 2003, the IRS Strategic Human


                                  37
                                     The TAP assesses a candidate’s skill in organizing information,
                                  problem solving, interpersonal relations, speaking, listening, and
                                  customer service.
                                  38
                                     In addition to the six call sites (five W&I Division sites and one
                                  SB/SE Division site) where the TAP was tested, the pilot included seven
                                  “control” call sites where the TAP was not used.
                                                                                                Page 24
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  Resources office planned to determine whether a correlation
                                  exists between the TAP and the on-the-job performance of
                                  the CSRs.
                                  The TAP should also be used for testing internal
                                  applicants for CSR positions
                                  To date, the TAP has been administered only to “external”
                                  candidates (i.e., from outside the IRS) for CSR positions.
                                  These external candidates take a written examination and
                                  their test scores are rated and ranked. Those deemed as
                                  Best Qualified are placed on a Certificate of Eligibility and
                                  subsequently scheduled for TAP testing.
                                  Whereas the three SB/SE Division CAS Accounts
                                  Management function remote call centers hire only external
                                  candidates for seasonal CSR positions, the five SB/SE
                                  Division CAS Accounts Management function campus call
                                  centers primarily hire “internal” candidates. External
                                  candidates are solicited at the campus call centers only if the
                                  number of internal applicants is insufficient to meet the
                                  seasonal CSR hiring goal. The SB/SE Division CAS
                                  Accounts Management function anticipates using the TAP
                                  in hiring external candidates, if any are needed, at its
                                  campus call centers for the 2004 Filing Season.
                                  Due to provisions in the IRS’ existing contract with the
                                  NTEU on hiring internal candidates, the SB/SE Division
                                  CAS Accounts Management function currently has no plans
                                  to use the TAP in selecting internal candidates for CSR
                                  positions at its campus call centers. Unlike external
                                  candidates, internal candidates do not take a written test and,
                                  generally, are not interviewed. When considering internal
                                  candidates for CSR positions, the IRS reviews each
                                  candidate’s experience, training, performance appraisal, and
                                  awards to determine a score that is used for compiling a list
                                  of the Best Qualified candidates. Essentially, the internal
                                  candidates are evaluated on their past IRS job performance
                                  that may not demand the same skills as those required of a
                                  CSR. This increases the risk of poor selection decisions that
                                  can result in low performance, high turnover, and
                                  nonrecoverable hiring and training costs.



                                                                                         Page 25
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  Use of the TAP in the hiring process for internal candidates
                                  would provide a realistic preview of the CSR position and,
                                  thereby, potentially curtail some of the early turnover.
                                  Internal candidates generally have only the vacancy
                                  announcement and the written job description as a basis for
                                  deciding whether to pursue a CSR position. In some
                                  instances, internal hires find the CSR job is not the job they
                                  envisioned. Internal candidates that do not succeed at the
                                  CSR position have options to return to their prior position or
                                  accept a reassignment to another position. Recently, the
                                  OPERA identified cycling as undesirable turnover.
                                  Cycling, which accounts for 10 percent of all IRS
                                  migrations, commonly occurs at the campus call centers.
                                  Including other assessment tools in the applicant
                                  screening process could result in better performing
                                  CSRs and further reduce CSR turnover
                                  Any assessment tool, even an apparently successful one
                                  such as the TAP, is subject to errors. No single assessment
                                  tool is 100 percent reliable in measuring job-relevant
                                  characteristics and/or predicting on-the-job performance.
                                  While assessment tools may effectively predict future
                                  performance, they cannot guarantee it.
                                  Multiple hurdles approach
                                  Because a single assessment tool may provide a limited
                                  view of an applicant’s qualifications, some employers in the
                                  call center industry use a “multiple hurdles” approach to
                                  improve the odds of picking a good performer from the pool
                                  of candidates. For example, Allstate uses a multilevel
                                  recruiting/hiring process at each of its four major call
                                  centers. Since implementing this selection process, Allstate
                                  has seen over 90 percent of its trainees make it – and
                                  succeed – on the telephones.39 Its agent selection process
                                  consists of a:
                                  •      Telephone interview.
                                  •      Web-based employment test developed for call center
                                         agents.


                                  39
                                       Levin, p. 1.
                                                                                        Page 26
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  •      Face-to-face interview.
                                  •      Tour of a call center with a chance to sit in with an agent
                                         and ask questions.
                                  Cigna Healthcare’s use of the following screening
                                  techniques reduced its hiring time, costs, and turnover
                                  among trainees and new agents:40
                                  •      A call center assessment process is administered to
                                         determine if applicants meet the center’s criteria for
                                         scheduling availability.
                                  •      Applicants are provided with written materials that
                                         explain key aspects of the job.
                                  •      Customized call-simulation software is used to present
                                         realistic call transactions in which job candidates play
                                         the role of an agent.
                                  •      A personal interview is conducted.
                                  Shadowing
                                  To screen out those that will not meet the high standards of
                                  customer service and may not stay the length of time
                                  necessary to recover the hiring and training costs, some
                                  companies have applicants spend a full day or two in the
                                  call center shadowing other agents before they continue the
                                  interview process.
                                  Behavior-based interviews
                                  The SSA has successfully used behavior-based interviews at
                                  two call centers to eliminate applicants that may not be a
                                  good “fit” for customer service positions. A manager, an
                                  agent, and a union representative administer the interview.
                                  Since the implementation of these interviews, the SSA has
                                  not had to release any customer service agents during the
                                  1-year probation period due to poor performance. However,
                                  under the IRS’ current agreement with the NTEU,
                                  behavioral interview techniques may not be used for
                                  bargaining unit vacancies.



                                  40
                                       Levin, p. 1.
                                                                                            Page 27
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  Recommendations

                                  To expand upon the improved CSR selection process being
                                  experienced with the TAP, the Director, CAS, SB/SE
                                  Division, should, upon completion of the 2003 validity
                                  study of the TAP:
                                  3. Request that the Deputy Director, Strategic Human
                                     Resources, seek to renegotiate the terms of the National
                                     Agreement with the NTEU to allow IRS management to
                                     use the TAP as a selection tool for the hiring of internal
                                     CSR applicants at its toll-free call centers. Adding the
                                     TAP to the internal hiring process should assist the IRS
                                     in selecting suitable applicants, assist the applicants in
                                     making more-informed decisions when accepting the
                                     CSR job, and, in turn, reduce cycling.
                                     Management’s Response: The Commissioner, SB/SE
                                     Division, will request that the Strategic Human
                                     Resources office include the use of TAP assessments for
                                     internal hiring in the upcoming midterm negotiations of
                                     the National Agreement with the NTEU.
                                  4. Develop a video that realistically illustrates the positive,
                                     as well as the negative, aspects of a typical day on the
                                     job as a CSR. In particular, the availability of a video
                                     would assist internal applicants, who do not participate
                                     in the TAP screening process, in making more-informed
                                     decisions about their own suitability for a CSR position.
                                     Management’s Response: The Commissioner, SB/SE
                                     Division, stated that, in campus locations, most
                                     employees have worked for the IRS for many years and
                                     have friends that work in the Submission Processing,
                                     Accounts Management, and Compliance Services
                                     functions. Through this network, employees
                                     continuously hear about both the negative and positive
                                     aspects of different jobs within each campus segment.
                                     Therefore, when employees from the Submission
                                     Processing and/or Compliance Services functions apply
                                     for CSR positions in the CAS Accounts Management
                                     function, they are making informed decisions.
                                     Additionally, the Commissioner stated the report did not
                                     provide compelling evidence that attrition was lower for
                                                                                         Page 28
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                     applicants that had viewed videos from prospective
                                     employers.
                                     Office of Audit Comment: We continue to believe that
                                     developing a job-preview video, illustrating a typical
                                     day of a CSR, would improve the effectiveness of the
                                     hiring process by maximizing the chances that the right
                                     candidates are selected to fill the job. Three of the eight
                                     SB/SE Division call sites are remote sites that primarily
                                     hire applicants from outside the IRS. These applicants
                                     would generally have no knowledge of the day-to-day
                                     operations of a call site prior to accepting the CSR job.
                                     The main reason for turnover is lack of job fit. To avoid
                                     costly turnover as experienced by the SB/SE Division,
                                     managing employees’ expectations of a job should start
                                     before employment. A one-time investment in a video
                                     that demonstrates the positive and negative aspects of a
                                     CSR job would enable internal and external applicants
                                     alike to better understand the expectations and demands
                                     of the job before accepting it, thereby reducing turnover
                                     cost in the long term.
                                  5. Explore renegotiating the terms of the National
                                     Agreement with the NTEU to permit IRS management
                                     to use behavioral interview techniques for bargaining
                                     unit vacancies.
                                     Management’s Response: The Commissioner, SB/SE
                                     Division, disagreed with this recommendation but does
                                     plan to explore the use of behavioral interviewing
                                     techniques in the private sector to determine its
                                     applicability to the CAS Accounts Management
                                     function.
                                     Office of Audit Comment: We are encouraged that the
                                     Commissioner, SB/SE Division, is willing to explore the
                                     use of behavioral interviewing techniques. We view this
                                     alternative action as an appropriate and reasonable step
                                     before considering whether our recommendation to
                                     explore renegotiating the terms of the National
                                     Agreement with the NTEU should be considered for
                                     implementation.



                                                                                        Page 29
 The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
  Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                   Effective retention policies result from data collection, data
Better Data Are Needed to
                                   analysis, and strategies designed to address the causes of
Reliably Determine the Extent,
                                   turnover.41 An organization needs to track turnover so it can
Causes, and Costs of Turnover
                                   build a history that is useful for identifying trends. With a
                                   turnover history, management is alerted when there are
                                   turnover problems and, if necessary, can take actions to
                                   resolve them.
                                   In 2001, the GAO reported42 the IRS was not actively
                                   monitoring call center turnover and determining what, if
                                   any, steps were needed to address it. The GAO also found
                                   little data were being collected to determine why CSRs
                                   leave. The GAO recommended the IRS develop a system
                                   for monitoring call center turnover and for identifying its
                                   causes so appropriate strategies for dealing with it could be
                                   developed. The IRS response to the report did not comment
                                   on monitoring why employees leave or comment on using
                                   this information to strengthen the IRS’ efforts to retain
                                   skilled CSRs.
                                   Better tracking of the extent of CSR turnover is needed
                                   As discussed earlier, the SB/SE Division CAS Accounts
                                   Management function lost 1,359 CSRs to external turnover
                                   during FYs 2001 and 2002. However, the total extent of its
                                   CSR turnover was not known because the SB/SE Division
                                   had no readily accessible data showing the number of CSRs
                                   that had left to move into other jobs within the IRS.
                                   While we determined the SB/SE Division was performing
                                   some monitoring of CSR turnover at its call centers, the data
                                   were not being consistently gathered or routinely analyzed
                                   for trends. The SB/SE Division’s primary purpose for
                                   tracking CSR turnover was short term because it focused on
                                   preparing hiring goals for the next filing season.
                                   In FY 2002, for example, each of the call centers completed
                                   a filing season readiness questionnaire that documented the
                                   historical CSR turnover for FY 2001. However, the call
                                   centers did not account for the turnover in a consistent


                                   41
                                    Griffeth, Hom, and Steel, pp. 150-151.
                                   42
                                    IRS Telephone Assistance: Opportunities to Improve Human Capital
                                   Management (GAO-01-144, dated January 2001).
                                                                                            Page 30
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  manner, with some call centers reporting percentages and
                                  others providing actual numbers. Without a uniform
                                  accounting method, it is difficult for SB/SE Division
                                  management to compare the historical turnover of the CSRs
                                  across the call center enterprise and formulate remedial
                                  actions.
                                  Generally, each call center has designed its own unique
                                  method for tracking CSR turnover, with no single approach
                                  prevailing. For instance, one call center tracked CSR
                                  turnover by three categories: permanent, seasonal, and new
                                  hires on probation. Another call center accounted for CSR
                                  turnover by only two categories: permanent and seasonal.
                                  A third call center maintained a record of every departing
                                  employee’s work status – permanent or seasonal – but did
                                  not compute separate turnover rates for these two categories.
                                  The capturing of the CSRs’ “reasons for leaving” also
                                  varied among the call centers.
                                  Call center industry “best practices” generally recommend
                                  tracking and analyzing turnover in a number of different
                                  ways. These include turnover that is internal vs. external,
                                  voluntary vs. involuntary, and controllable vs.
                                  uncontrollable; and turnover by length of employment, by
                                  performance level, and by work shift. Armed with these
                                  data, management is better able to design long-term
                                  strategies to address the root causes of turnover.
                                  A better understanding of the causes for turnover is
                                  needed
                                  One of the keys to reducing turnover lies in knowing why
                                  employees stay or leave their job. Before an effective
                                  retention strategy can be developed, management needs
                                  factual information that helps to pinpoint exactly what is
                                  causing the turnover. Without the knowledge of why
                                  employees leave, management is hindered in its ability to
                                  formulate effective retention policies to reduce employee
                                  turnover.
                                  The formulation of a retention policy often begins with the
                                  acquisition of data from exit interviews. However, the
                                  SB/SE Division call centers do not administer exit
                                  interviews to the CSRs that leave for other positions within

                                                                                       Page 31
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  the IRS. In addition, the practice of giving exit interviews
                                  to the CSRs that are separating from the IRS varied among
                                  the call centers. For instance, managers at one call center
                                  interviewed departing CSRs in response to exceptionally
                                  high turnover among new hires during one filing season.
                                  Managers at another call center designed an online exit
                                  interview; however, the participation rate has been minimal,
                                  thereby rendering the results insignificant.
                                  In December 2002, the SB/SE Division began offering an
                                  exit survey to all departing employees (i.e., those separating
                                  from the IRS as well as those leaving for a position in
                                  another IRS business operating division). Employees that
                                  merely transfer from one position to another within the
                                  SB/SE Division do not complete the exit survey.
                                  Participation by the departing employees is voluntary, and
                                  they have the option of completing a paper version of the
                                  survey or completing it online on the IRS Intranet.
                                  One excellent design feature of the exit survey is that it
                                  captures the employee’s job series. With this design feature,
                                  the SB/SE Division should be able to discern the factors that
                                  are causing the CSRs to leave their positions. Employees
                                  can add narrative comments on the printed version of the
                                  SB/SE Division’s exit survey; however, the online version
                                  does not permit any narrative. Although it is more difficult
                                  to systemically compile it, the most insightful information
                                  often comes from the narrative comments added by
                                  departing employees.
                                  To date, the exit survey participation level by employees
                                  leaving the SB/SE Division has been low. Since the
                                  inception of the exit survey, the SB/SE Division has
                                  received around 70 completed exit surveys (40 online
                                  surveys and 30 paper surveys) from 700 separating
                                  employees, a 10 percent response rate. On March 7, 2003,
                                  we were advised that only 10 of the 70 completed surveys
                                  were from the CSRs. The SB/SE Division estimates another
                                  6 months to a year must pass before a sufficient volume of
                                  exit surveys can be secured to perform a reliable analysis of
                                  the factors causing employees to leave the Division.
                                  The SB/SE Division plans to work in partnership with the
                                  IRS Communications function to develop alternative

                                                                                        Page 32
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  methods of alerting employees about the exit survey. To
                                  ensure transferring employees are informed of the voluntary
                                  exit survey, the SB/SE Division is considering installing a
                                  pop-up menu for front-line managers to illustrate the
                                  necessary actions to be taken when employees leave their
                                  work unit for a job in another division.
                                  The costs of turnover should be computed and tracked
                                  As discussed earlier, CSR turnover adds several million
                                  dollars per year to the cost of providing toll-free telephone
                                  service. However, the SB/SE Division has no systematic
                                  process for capturing the data necessary to calculate the total
                                  costs of its CSR turnover.
                                  Managers in the Federal Government have an inherent and
                                  increasing responsibility to manage their operations in an
                                  effective and efficient manner. Given the significant impact
                                  turnover can have on call center operations, it is important
                                  that the IRS manage CSR turnover and its associated costs
                                  like other key performance indicators. In tight budgetary
                                  times, any cost savings from reduced turnover could
                                  translate into funding for critically needed operations.
                                  The Chief Financial Officers Act of 199043 and the
                                  Government Performance and Results Act of 1993
                                  (GPRA)44 both contain requirements for better management
                                  of costs. Activity-Based Costing (ABC)45 is one cost
                                  accounting method being increasingly used by organizations
                                  in both the private and public sectors. Unlike traditional
                                  cost methods, ABC assigns all costs, including overhead, to
                                  specific activities rather than to the entire organization.
                                  The ready availability of cost information on CSR turnover
                                  would enable management to benchmark or baseline its
                                  costs; provide management with additional information for
                                  measuring the cost/benefits of CSR retention initiatives and
                                  developing future turnover reduction strategies; and assist

                                  43
                                     Pub. L. No. 101-576, 104 Stat. 2838 (codified as amended in scattered
                                  sections of 5 U.S.C., 31 U.S.C., and 42 U.S.C.).
                                  44
                                     Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                                  sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                  45
                                     A cost accounting method that measures costs based on the specific
                                  activities needed to create the product or service.
                                                                                                 Page 33
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  managers, executives, and stakeholders in determining the
                                  efficiency of key program decisions affecting the CSR
                                  workforce.

                                  Recommendations

                                  To assist management in acquiring a better understanding of
                                  the extent and causes of CSR turnover, developing
                                  appropriate retention strategies that effectively address those
                                  issues, and ensuring adequate and reliable data are available
                                  on all of its significant component costs of providing
                                  toll-free telephone service, the Director, CAS, SB/SE
                                  Division, and the Director, Human Resources, SB/SE
                                  Division, should coordinate to:
                                  6. Develop a standard data collection instrument for CSR
                                     turnover, ensure it is consistently used at each call
                                     center, and regularly analyze the data for trends. This
                                     information gathering and analysis should include
                                     turnover that is internal vs. external, voluntary vs.
                                     involuntary, and controllable vs. uncontrollable; and
                                     turnover by length of employment, by performance
                                     level, and by work shift.
                                       Management’s Response: The Commissioner, SB/SE
                                       Division, will work with the SB/SE Division Embedded
                                       Human Resources (HR) office to request the
                                       development of standard reports on HR Connect46 that
                                       will provide turnover information by different variables.
                                       In the interim, a standard format will be established that
                                       each Director and site will use to report quarterly on
                                       turnover.
                                  7. Ensure a consistent and effective method is used at each
                                     call center to determine the reasons why the CSRs leave
                                     the IRS and/or leave their positions for other jobs in the
                                     IRS. Some actions that could be taken include
                                     streamlining the method of accessing the SB/SE
                                     Division’s exit survey on the IRS Intranet, modifying


                                  46
                                    HR Connect is the Department of the Treasury’s primary human
                                  resource system that provides a broad range of applications, services,
                                  and information to HR offices, employees, and managers.
                                                                                                  Page 34
 The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
  Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                      the exit survey to allow employees electing to complete
                                      it electronically an opportunity to add narrative
                                      comments; redesigning the Separating Employee
                                      Clearance Certificate (Form 5389) to ensure the
                                      front-line manager informs each separating CSR of the
                                      option to complete the survey; developing a pop-up
                                      menu that alerts a front-line manager with a CSR
                                      transferring to another IRS work area to inform the
                                      departing CSR of the option to complete the survey; and
                                      evaluating whether randomly soliciting CSRs to
                                      voluntarily meet with either a human resources specialist
                                      or a manager other than their immediate manager would
                                      be more beneficial in gaining insight on voluntary
                                      turnover than the current method used to obtain
                                      feedback from this group.
                                      Management’s Response: The Commissioner, SB/SE
                                      Division, stated the Division recently implemented an
                                      exit survey for all employees and is working with the
                                      Embedded HR office to ensure information from the exit
                                      survey is shared with campus management.
                                      Additionally, the Division will work with the Strategic
                                      Human Resources office to modify Form 5389.
                                   8. Develop the means to accurately and routinely capture
                                      and analyze the costs of internal and external turnover of
                                      CSRs.
                                      Management’s Response: The Commissioner, SB/SE
                                      Division, stated the Chief Financial Officer is
                                      implementing a comprehensive IRS-wide solution to
                                      modernize the IRS accounting system. The Integrated
                                      Financial System is designed to meet the need for ABC.
                                      The preliminary cost model is scheduled for
                                      implementation in April 2004. After its successful
                                      implementation, the Division will explore the possibility
                                      of securing meaningful reports to reflect the costs of
                                      turnover.
                                   Both the length of time employees stay on the job and their
Management Accountability for
                                   productivity on the job are often determined by their
Customer Service Representative
                                   relationship with their immediate supervisor. Recent studies
Turnover Should Be Increased
                                   have shown that managers are the key element to employee
                                   retention:

                                                                                        Page 35
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  •    A Purdue University research study47 found 92 percent
                                       of telephone agents looked upon “good relations with
                                       my boss” as the most significant element of job
                                       satisfaction.
                                  •    A 1999 Lou Harris & Associates/Spherion poll48 found
                                       40 percent of employees that rated their supervisors as
                                       poor were likely to leave, compared to 11 percent that
                                       rated their supervisors as excellent.
                                  A 2000 Gallup study49 conducted with 2 million employees
                                  at 700 companies showed employees rated having a caring
                                  supervisor/manager higher than money or fringe benefits.
                                  Call center managers at the IRS are not held
                                  accountable for turnover
                                  The SB/SE Division has not established reducing CSR
                                  turnover as a corporate goal. Executives and managers with
                                  responsibility for call center operations have no specific
                                  performance expectations to reduce turnover.
                                  While call center executives and managers cannot be
                                  expected to be able to control all turnover, we believe that,
                                  given its significant direct and indirect costs, reducing
                                  turnover should be a performance measure management is
                                  accountable for achieving. In the private sector,
                                  organizations are increasingly holding managers
                                  accountable for the morale of their employees, and many
                                  companies have also begun to measure managers’ turnover
                                  rates.
                                  With excessive turnover resulting in higher costs and
                                  potentially contributing to lower productivity and poorer
                                  quality, it is essential that turnover be measured as
                                  vigorously as other key call center performance indicators.
                                  Even though management has no control over external
                                  factors (e.g., the economy), actions can be taken at the work
                                  unit level to address internal factors that contribute to the
                                  CSRs leaving the call center environment.


                                  47
                                     Anton and Rockwell, pp. 33-34.
                                  48
                                     California Franchise Tax Board, p. 23.
                                  49
                                     California Franchise Tax Board, p. 23.
                                                                                        Page 36
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                  Generally, organizations witnessing the most dramatic
                                  reductions in turnover are the ones in which the leadership
                                  has made it a priority. Of all the changes an organization
                                  can implement to reduce turnover, developing managers
                                  into retention champions has potentially the greatest impact.

                                  Recommendations

                                  To increase management accountability for CSR turnover
                                  and to ensure appropriate management attention is focused
                                  toward this critical aspect of call center operations, the
                                  Director, CAS, SB/SE Division, needs to:
                                  9. Add “Annual Turnover”50 to the corporate suite of call
                                     center performance measures.
                                       Management’s Response: The Commissioner, SB/SE
                                       Division, stated there is no proven nexus between
                                       adding “Annual Turnover” to the suite of corporate
                                       measures and a reduction in turnover. The
                                       Commissioner stated implementation of this
                                       recommendation will place an undo burden on
                                       management, may or may not have any impact, and
                                       could have negative “unintended” consequences such as
                                       local management not dealing with performance
                                       problems in an effort to reduce CSR attrition. The
                                       Commissioner also stated the Division has found a
                                       majority of its CSRs leave for higher-graded positions or
                                       lower-graded permanent positions in other parts of the
                                       organization.
                                       Office of Audit Comment: We concur that the addition
                                       of “Annual Turnover” to the suite of corporate
                                       measures may not directly result in the reduction of
                                       turnover. Due to its impact on costs and the quality of
                                       services provided, however, CSR turnover is a key
                                       performance indicator that is aggressively tracked and
                                       managed throughout the call center industry. Like the


                                  50
                                    The call center industry defines the metric “Annual Turnover” as the
                                  total number of CSRs that leave a call center in 1 year divided by the
                                  average number of CSRs that worked in the center during the year,
                                  typically expressed as a percentage.
                                                                                                Page 37
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                     other corporate measures used by the IRS to manage its
                                     call center operations, the availability of an “Annual
                                     Turnover” measure would help to ensure CSR turnover
                                     receives the continuous scrutiny from upper-level
                                     management that it needs. Without a corporate measure,
                                     upper-level management may not be timely alerted to
                                     unsatisfactory turnover trends that require appropriate
                                     examination of hiring and retention strategies. Further,
                                     we do not share the Commissioner’s concern that the
                                     existence of a corporate measure for turnover would
                                     deter front-line management from dealing with
                                     performance problems when necessary.
                                  10. Establish a corporate CSR turnover goal based on
                                      historical data and projected economic conditions and
                                      require management at the CAS Accounts Management
                                      function call centers to develop site-specific retention
                                      strategies to support the corporate goal.
                                     Management’s Response: The Commissioner, SB/SE
                                     Division, disagreed with this recommendation for the
                                     same reasons as given for the prior recommendation
                                     (Recommendation 9).
                                     Office of Audit Comment: We are concerned that,
                                     without establishing goals for reducing CSR turnover
                                     and developing strategies to support these goals, the
                                     SB/SE Division will continue to incur significant annual
                                     turnover. While some turnover is inevitable and
                                     desirable, we still believe goals and strategies to
                                     minimize turnover would enable the SB/SE Division to
                                     better focus its workforce planning on reducing CSR
                                     turnover and gauge how well its workforce initiatives
                                     for reducing turnover are working, thereby lowering its
                                     costs to provide toll-free telephone services.




                                                                                       Page 38
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                                                                    Appendix I


                      Detailed Objective, Scope, and Methodology

Our objective was to determine whether the Small Business/Self-Employed (SB/SE) Division
Customer Account Services (CAS) Accounts Management function is effectively managing
Customer Service Representative (CSR) turnover at its toll-free call centers.
To accomplish this objective, we:
I.     Reviewed call center industry literature; discussed CSR turnover with call center industry
       experts at BenchmarkPortal, Inc., Xavier University’s Department of Management and
       Entrepreneurship, and the California Franchise Tax Board; and visited the Social Security
       Administration headquarters office in Baltimore, Maryland, to determine:
           Annual turnover rates by industry segment.
           Annual turnover rates by function.
           Methods for measuring annual turnover in call centers.
           Approaches to analyzing turnover in call centers.
           Tools used to ascertain root causes of turnover.
           Techniques for calculating Return on Investment for turnover improvement.
           Strategies to reduce turnover and increase retention.
II.    Evaluated whether a benchmark and goals exist to monitor turnover of the CSRs.
       A. Interviewed management from the Internal Revenue Service (IRS) Strategic Human
          Resources (SHR) office, Office of Program Evaluation and Risk Analysis (OPERA),
          Wage and Investment (W&I) Division CAS office, SB/SE Division Embedded
          Human Resources office, and SB/SE Division CAS office to determine whether a
          benchmark and goals have been established for turnover (internal and external) of
          CSRs at the call centers.
       B. Interviewed management at the SB/SE Division toll-free call centers to determine
          whether a benchmark and goals for turnover have been communicated to the call
          centers.
III.   Evaluated whether a method had been developed to compute turnover (internal and
       external) of the CSRs.
       A. Ascertained whether a model had been developed for turnover.
       B. Ascertained whether a systemic process was in place to capture data on turnover.

                                                                                         Page 39
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

      C. Identified the data sources used to account for turnover (internal and external).
      D. Ascertained the current methods used to calculate turnover and determined whether
         the methods were universal or unique to each division/call center.
IV.   Evaluated whether turnover by the CSRs is routinely monitored and analyzed to pinpoint
      patterns/trends of turnover (e.g., length of employment, etc.).
      A. Interviewed management from the IRS offices of SHR, OPERA, W&I Division CAS,
         SB/SE Division Embedded Human Resources, and SB/SE Division CAS to ascertain
         whether any studies or projects had been initiated to examine turnover.
      B. Interviewed management from the IRS offices of SHR, OPERA, W&I Division CAS,
         SB/SE Division Embedded Human Resources, and SB/SE Division CAS and the
         SB/SE Division toll-free call centers to determine whether CSR turnover was
         routinely calculated, tracked, and analyzed and, if so, whether the costs of CSR
         turnover were computed.
      C. Ascertained the data sources used for analyzing CSR turnover to obtain patterns and
         trends of turnover.
      D. Determined the purpose of any analysis of CSR turnover data and whether it was used
         for recruiting, hiring, training, and retaining policies/programs.
      E. Ascertained whether the IRS used a statistical process control chart in its analysis to
         determine whether CSR turnover exceeds the norm.
V.    Ascertained the tools (e.g., employee satisfaction surveys, exit interviews, etc.) used by
      the IRS.
      A. Interviewed management from the IRS offices of SHR, OPERA, W&I Division CAS,
         and SB/SE Division Embedded Human Resources and the SB/SE Division toll-free
         call centers to ascertain the tools used to determine root causes of turnover and
         evaluate the process for selecting such tools.
      B. Evaluated how the results from the employee satisfaction surveys and the
         accompanying team action plans were used to address turnover at the SB/SE Division
         toll-free call centers.
      C. Determined if exit interviews were administered to all employees leaving call centers
         (whether for positions outside or within the IRS), who administered the exit
         interviews, and whether the exit interview was uniform.
      D. Ascertained whether the root causes of turnover were investigated/validated and
         compared to benchmark data and “Best Practices” of the call center industry.
VI.   Reviewed the process used for evaluating proposed turnover initiatives prior to
      implementation.

                                                                                             Page 40
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

       A. Determined whether and how root causes of turnover were evaluated for the “most
          critical” and “must fix it now” category and ascertained the process for developing
          solutions for the “most critical” causes.
       B. Interviewed SB/SE Division CAS personnel to determine whether the benefits/costs
          of the turnover improvement initiative, Telephone Assessment Program, were
          evaluated prior to implementation.
VII.   Evaluated whether the IRS has a corporate strategy to reduce turnover and increase the
       retention of the CSRs.
       A. Reviewed any human resources studies and current improvement initiatives to
          ascertain the purpose of such initiatives, the method for assessing initiatives, and
          whether the impact on turnover was evaluated prior to implementation.
       B. Reviewed the IRS Strategic Human Resources Fiscal Year 2004 Strategic Assessment
          Human Capital, the IRS National Headquarters Strategy and Program Plan, the W&I
          Division Strategy and Program Plan, and the SB/SE Division Strategy and Program
          Plan; and interviewed managers/analysts to ascertain whether turnover was measured
          in a consistent manner and whether a corporate plan had been developed to reduce
          turnover and increase retention of the CSRs.




                                                                                           Page 41
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Philip Shropshire, Director
William E. Stewart, Audit Manager
Gwendolyn G. Gilboy, Senior Auditor
Ali A. Vaezazizi, Auditor




                                                                                       Page 42
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Personnel Services OS:A:PS
Chief, Human Capital Officer OS:HC
Chief, Work Planning and Administration, Small Business/Self-Employed Division
SE:S:CAS:WPA
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Human Resources, Small Business/Self-Employed Division SE:S:MS:HR
Deputy Director, Accounts Management, Small Business/Self-Employed Division
SE:S:CAS:AM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Director, Customer Account Services, Small Business/Self-Employed Division
       SE:S:CAS




                                                                                 Page 43
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                                                                                   Appendix IV

                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•      Inefficient Use of Resources – Potential; $3,252,520 reduction in the cost of replacing
       Customer Service Representatives (CSR) due to lower turnover (see page 4).
Methodology Used to Measure the Reported Benefit:
Every filing season,1 new hires have to be recruited and trained for the CSR position at each of
the Small Business/Self-Employed (SB/SE) Division call centers. To determine whether each
call center is meeting its CSR hiring goal for the filing season, the SB/SE Division Customer
Account Services (CAS) function tracks the turnover of the newly hired CSRs. For the
1,131 new CSRs hired for the 2002 Filing Season, the CAS function calculated an average
turnover rate of 22.6 percent as of the week ending June 1, 2002. Table 1 shows the turnover for
the newly hired CSRs in the eight SB/SE Division call centers.
                   Table 1: Losses of New Hires for the CSR Job at the SB/SE Division Call Centers
     SB/SE Division        Type of        New Hires Committed        New Hire Turnover       New Hire Turnover
      Call Center         Call Center       for the CSR Job                                     Percentage
    Brookhaven              Campus                 187                        36                    19.3%
    Cincinnati              Campus                 149                        40                    26.8%
    Memphis                 Campus                 171                        45                    26.3%
    Ogden                   Campus                 214                          8                    3.7%
    Philadelphia            Campus                 195                        54                    27.7%
    Buffalo                 Remote                  69                        14                    20.3%
    Nashville               Remote                  83                        33                    39.8%
    Oakland                 Remote                  63                        26                    41.3%
        TOTAL                                     1,131                       256                  22.6%
Source: Fiscal Year 2002 SB/SE Division Accounts Management “CSR” Recruitment and Attrition Summary, Week
Ending June 1, 2002.




1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                            Page 44
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

o Annual Compensation for Newly Hired CSRs
As shown in Table 2, we calculated the annual compensation of the newly hired CSRs for the
2002 Filing Season using the following assumptions:
      •   The CSRs were hired during first quarter of Fiscal Year (FY) 2002 (i.e., October 2001
          through December 2001) for the 2002 Filing Season.
      •   The newly hired CSRs’ beginning annual salary was at Grade 5, Step 1, of the Federal
          Government’s pay chart using Calendar Year 2001 salary levels.
      •   The cost of benefits for the newly hired CSRs was computed at the FY 2002 Floor
          Benefit Rate of 28.03 percent2 of annual salary.
                 Table 2: Annual Compensation of Newly Hired CSRs for the 2002 Filing Season
                           Grade 5, Step 1 Salary        Cost of Benefits Calculated      Annual Compensation
                            Calendar Year 2001            at 28.03% of 2001 Salary        (Salary plus Benefits)

    Newly Hired CSR               $23,633                          $6,624                        $30,257
Source: 2001 Federal Government Pay Chart 3 and Internal Revenue Service Corporate Budget.


o Estimated Cost of 22.6% Turnover, Average Turnover of Newly Hired CSRs in
  FY 2002
Table 3 illustrates the formula4 we used to calculate the cost of the 22.6 percent turnover rate for
newly hired CSRs in FY 2002.
              Table 3: Estimated Cost of Average New Hire Turnover of 22.6 Percent in FY 2002
        Annual         Percentage Used to      Estimated Cost of        Number of New Hire          Cost of New
    Compensation of      Determine the          Losing a Newly               Separations               Hire
     a Newly Hired     Cost of Turnover5          Hired CSR            (Total Hired X Average        Turnover
         CSR                                                                  Turnover)

       $30,257                25%                   $7,564             1,131 x 22.6% = 256          $1,936,384
Source: American Management Association’s Cost of Early Employee Turnover Calculator, at
www.advantagehiring.com/calculators and Employment Policy Foundation “hrbenchmarks” December 3, 2002,
edition, at www.epf.org.




2
  Floor Benefit Rate was obtained from the Internal Revenue Service Corporate Budget.
3
  Incorporating the 2.70 percent General Schedule increase and a Locality Payment of 7.68 percent for the locality
pay area of the rest of the United States.
4
  Formula: ((Annual Salary + Benefits) X 25 %) X (Number of New Hire Separations) = Cost of
New Hire Turnover.
5
  Many human resource experts estimate the average cost of replacing a lost employee is, at a minimum,
25 percent of the annual compensation (i.e., salary plus benefits).
                                                                                                           Page 45
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

o Potential Cost Savings, by Reducing Average Newly Hired CSR Turnover to 15 Percent
According to a recent study by Manchester, Inc., more careful selection in the hiring of front-line
employees results in reducing turnover by 57 percent.6 As shown in Table 4, we conservatively
assumed that the implementation of the collective recommendations in this report could reduce
turnover of newly hired CSRs from 22.6 percent to 15 percent.
                     Table 4: Cost of Average New Hire Turnover of 15 Percent in FY 2002
    Estimated Cost of Losing a            New Hire Separations                 Cost of New Hire Turnover
    Newly Hired CSR                       at 15% Turnover Rate

              $7,564                      1,131 x 15% = 170                            $1,285,880
Source: American Management Association’s Cost of Early Employee Turnover Calculator, at
www.advantagehiring.com/calculators and Employment Policy Foundation “hrbenchmarks” December 3, 2002,
edition, at www.epf.org.

Table 5 summarizes the potential annual cost savings that could be realized by reducing the new
hire turnover rate to 15 percent.
                             Table 5: Calculation of Annual Potential Cost Savings

Cost of New Hire Turnover Averaging 22.6 Percent:                                              $1,936,384
Cost of New Hire Turnover Averaging 15.0 Percent:                                              (1,285,880)
Annual Potential Cost Savings by Reducing Average Turnover:                                    $ 650,504
Source: Employment Policy Foundation “hrbenchmarks” December 3, 2002, edition, at www.epf.org.

Table 6 summarizes the total potential cost savings, over 5 years, that could be realized by
reducing the new hire turnover rate to 15 percent.
                                 Table 6: Potential Cost Savings Over 5 Years

                                                     1 Year                               5 Years
       Potential Cost Savings                      $650,504                             $3,252,520
Source: 5-Year Calculation obtained by multiplying annual potential cost savings by 5 years.




6
    Hauenstein, “How Do I Reduce Turnover? Let Me Count the Ways”, p. 3.

                                                                                                     Page 46
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                                                                   Appendix V


                                         Bibliography

The following list of reference materials provides sources of information on specific topics and
issues relating to turnover of Customer Service Representatives. The main text of the report has
referred to many of the publications listed below. Others are included as general reference
documents and as recommended readings.
Adorno, Anthony J. and John F. Binning. Technical Report: Analysis of Employee Turnover
    and Job Performance for Call Center Representatives. Bloomington: The DeGarmo
    Group, 1999.
Anton, Jon. Call Center Management By the Numbers. West Lafayette: Purdue University
     Press, 1997.
Anton, Jon. Government Call Centers Performance Benchmark Report. Sponsored by
    American Management Systems, Inc. West Lafayette: Purdue Research Foundation, 2002.
Anton, Jon and Dru Phelps. How to Conduct a Call Center Performance Audit: A to Z.
     Santa Maria: The Anton Press, 2002.
Anton, Jon and Anita Rockwell. Minimizing Agent Turnover. Santa Maria: The Anton Press,
     2002.
Belfiore, Bruce. Benchmarking for Profits! Santa Maria: The Anton Press, 2002.
“Best Practices in Call Center Management, Operations and Technology.” Call Center Learning
     Center. 1999. ProSci. Available at <http://www.call-center.net/ccstudy-practices.htm>
     (18 September 2000).
Bliss, William G. “Cost of Employee Turnover.” The Advisor
      <http://www.isquare.com/turnover.cfm> (27 June 2003).
Branham, F. Leigh. “Six Truths about Employee Turnover.” American Management
     Association. 2000. <http://www.amanet.org/books/catalog/0814405975_s.htm>
     (27 June 2003).
Burchman, Seymour and Debra Schmitt. “Understanding the Costly Threat of Agent Turnover.”
     Call Center Management Review. November 2000: 1-7. Incoming Calls Management
     Institute. Subscription available at <http://www.icmimembers.com> (9 August 2002).
     Path: CCMR Searchable Archives.
California Franchise Tax Board. Taxpayer Services Center. Employee Longevity Study.
      November 7, 2002.


                                                                                         Page 47
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

Cleveland, Brad and Debbie Harne,eds. Call Center People Management Handbook and Study
     Guide Version 2. Annapolis: Call Center Press, 2003.
Cleveland, Brad and Julia Mayben. Call Center Management On Fast Forward. Annapolis:
     Call Center Press, 1997.
Department of the Treasury. Internal Revenue Service. IRS Strategic Plan, Fiscal
    Year 2000-2005. Publication 3744 (2-2001). <http://www.irs.gov/pub/irs-
    utl/irs_strategic_plan.pdf > (27 June 2003).
Department of the Treasury. Internal Revenue Service. Modernizing America’s Tax Agency.
    Publication 3349 (Rev. 1-2000). <http://www.irs.gov/pub/irs-pdf/p3349.pdf >
    (27 June 2003).
Employment Policy Foundation. “Employee Turnover – A Critical Human Resource
    Benchmark.” hrbenchmarks. December 2002: 1 – 5.
    <www.epf.org/research/newsletters/2002/hb20021203.pdf> (June 27, 2003).
Exec. Order No. 12,862, 58 Fed. Reg. 48,257 (September 14, 1993).
Griffeth, Rodger W., Peter W. Hom, and Robert P. Steel. “Practical Retention Policy for the
      Practical Manager.” Academy of Management Executive. 16.2 (2002): 149 – 162.
Hakstian, Ralph and Linda Scratchley. “Building a High-Performance Call Center Workforce
     Through a Scientifically-Based Selection System.” 1999. Technology Marketing
     Corporation. <http://www.tmcnet.com/articles/ccsmag/0399/0399hr.htm>
     (27 June 2003).
Harps, Leslie Hansen. “Government Call Centers Share Tips for Improving Morale and
     Motivation.” Call Center Management Review. February 2001: 1 – 4. Incoming Calls
     Management Institute. Subscription available at <http://www.icmimembers.com>
     (8 August 2002). Path: CCMR Searchable Archives.
Hash, Susan, ed. “Agent Staffing & Retention Study Final Report.” Call Center Management
     Review. Spring 2000: 1 – 20. Incoming Calls Management Institute. Subscription
     available at <http://www.icmimembers.com> (9 August 2002). Path: CCMR Searchable
     Archives.
Hash, Susan. “Keep New Hires Longer through Orientation and Transition Training.” Call
     Center Management Review. December 2001: 1 – 7. Incoming Calls Management
     Institute. Subscription available at <http://www.icmimembers.com> (9 August 2002).
     Path: CCMR Searchable Archives.
Hauenstein, Pat. “How Do I Reduce Turnover? Let Me Count the Ways.” Advantage Hiring
    4Q99 Newsletter. 1999. Advantage Hiring.
    <http://www.advantagehiring.com/newsletter/n99Q4_4.htm> (13 March 2003).


                                                                                        Page 48
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

Hauenstein, Pat. “Understanding Turnover.” Advantage Hiring 4Q99 Newsletter. 1999.
    Advantage Hiring. <http://www.advantagehiring.com/newsletter/n99Q4_1.htm>
    (13 March 2003).
Hiatt, Jeff. “Use and Misuse of Call Center Benchmarking Information.” Call Center Learning
      Center. 1998-2000. ProSci. <http://www.call-centers.org/Call-center-
      benchmarking.html> (27 June 2003).
“Human Resources Issues.” Call Center News Service. 2001 – 2002. Silver Lake Publishing.
    <www.callcenternews.com/resources/stats_hr.shtml> (27 June 2003).
Kaye, Beverly and Sharon Jordan-Evans. “Low-Cost (and No Cost) Strategies for Retaining
     Agents.” Call Center Management Review. August 2002: 9 – 10. Incoming Calls
     Management Institute. Subscription available at <http://www.icmimembers.com>
     (9 August 2002). Path: CCMR Searchable Archives.
Lee, Christopher. “Survey Finds Federal Workers Are Restless; At Least a Third Are
     Considering Leaving Jobs.” Washington Post. 26 March 2003, final ed.: A15.
Levin, Greg. “Another Look at Call Centers Doing Big Things in Key Areas.” Call Center
     Management Review. January 2003: 1 – 20. Incoming Calls Management Institute.
     Subscription available at http://www.icmimembers.com (9 January 2003). Path: CCMR
     Searchable Archives.
Moskowitz, Ruth. “Get Fit to Reduce Turnover.” Advantage Hiring 4Q99 Newsletter. 1999.
    Advantage Hiring. <http://www.advantagehiring.com/newsletter/n99Q4_3.htm>
    (24 October 2003).
Moskowitz, Ruth. “It Pays to Tell the Truth: Realistic Job Previews.” Advantage Hiring 4Q99
    Newsletter. 1999. Advantage Hiring.
    <http://www.advantagehiring.com/newsletter/n99Q4_2.htm> (24 October 2003).
O’Hara, Anita. “How to Develop a Retention-Oriented Agent Recruiting and Selection
    Process.” Call Center Management Review. April 2001: 1 – 4. Incoming Calls
    Management Institute. Subscription available at <http://www.icmimembers.com>
    (9 August 2002). Path: CCMR Searchable Archives.
Queue Tips. Incoming Calls Management Institute.
    <http://www.incoming.com/QueueTips.aspx?SelectedNode=71> (24 October 2003).
“Reduce Employee Turnover”. SelectionResources.com.
    <http://www.selectionresources.com/turnover.cfm> (27 June 2003).




                                                                                     Page 49
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

U.S.1 Department of Labor. Employment and Training Administration. Testing and
      Assessment: An Employer’s Guide to Good Practices. Washington: GPO,2 1999.
U.S. General Accounting Office. Report to the Chairman, Subcommittee on Oversight,
     Committee on Ways and Means, House of Representatives. Customer Service: Human
     Capital Management at Selected Public and Private Call Centers. (GAO/GGD-00-161,
     dated August 2000). Washington: GPO, 2000.
U.S. General Accounting Office. Human Capital: A Self-Assessment Checklist for Agency
     Leaders. (GAO/OCG-00-14G, dated September 2000 Version 1). Washington: GPO,
     2000.
U.S. General Accounting Office. Report to the Chairman, Subcommittee on Oversight,
     Committee on Ways and Means, House of Representatives. IRS Customer Service:
     Management Strategy Shows Promise But Could Be Improved. (GAO/GGD-99-88, dated
     April 1999). Washington: GPO, 1999.
U.S. General Accounting Office. Report to the Ranking Democratic Member, Committee on
     Veterans’ Affairs, House of Representatives. Veterans Benefits Administration: Better
     Collection and Analysis of Turnover Data Needed to Enhance Workforce Planning.
     (GAO-03-491, dated April 2003). Washington: GPO, 2003.
U.S. Merit Systems Protection Board. Office of Policy and Evaluation. Competing for Federal
     Jobs: Job Search Experiences of New Hires. Washington: GPO, 2000.
U.S. Merit Systems Protection Board. Office of Policy and Evaluation. The Federal Selection
     Interview: Unrealized Potential. Washington: GPO, 2003.
U.S. Merit Systems Protection Board. Office of Policy and Evaluation. “Fewer Hoops, Higher
     Hurdles.” Issues of Merit (September 2002): 1 - 5. Washington: GPO, 2002.
U.S. Merit Systems Protection Board. Office of Policy and Evaluation. Who Is Leaving the
     Federal Government? An Analysis of Employee Turnover. Washington: GPO, 1989.
U.S. Merit Systems Protection Board. Office of Policy and Evaluation. Why Are Employees
     Leaving the Federal Government? Washington: GPO, 1990.
U.S. Office of Personnel Management. Human Capital Assessment and Accountability
     Framework. <http://apps.opm.gov/HumanCapital/tool/index.cfm> (27 June2003).




1
    U.S. represents United States.
2
    GPO represents the Government Printing Office.


                                                                                      Page 50
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist

                                                                        Appendix VI


                   Management’s Response to the Draft Report




                                                                              Page 51
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 52
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 53
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 54
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 55
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 56
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 57
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 58
The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly Turnover
 Among Its Customer Service Representatives, but Improvement Opportunities Still Exist




                                                                              Page 59
